                                            UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


AUD-CG-13-31                                     Office of Audits                                         June 2013




         Audit of Grant Closeout Processes
     for Selected Department of State Bureaus




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                            UNCLASSIFIED
                                                           United States Department of State
                                                           and the Broadcasting Board of Governors

                                                           Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     1 express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General
                            UNCLASSIFIED




Acronyms
A/LM/AQM    Bureau of Administration, Office of Logistics Management, Office of
               Acquisitions Management
A/OPE       Bureau of Administration, Office of the Procurement Executive
A/OPE/FA    Bureau of Administration, Office of the Procurement Executive, Federal
               Assistance Division
CFO         Chief Financial Officer
CGFS        Bureau of the Comptroller and Global Financial Services
DCFO/FAFM   Bureau of the Comptroller and Global Financial Services, Deputy Chief
               Financial Office, Financial Policy, Reporting and Analysis, Office of
               Federal Assistance Financial Management
ECA         Bureau of Educational and Cultural Affairs
FAH         Foreign Affairs Handbook
GAO         Government Accountability Office
GFMS        Global Financial Management System
GOR         grants officer representative
GPD         Grants Policy Directive
HHS         Department of Health and Human Services
NICRA       Negotiated Indirect Cost Rate Agreement
OIG         Office of Inspector General
OMB         Office of Management and Budget
PMS         Payment Management System
PRM         Bureau of Population, Refugees and Migration




                            UNCLASSIFIED
                                                           UNCLASSIFIED


                                                         Table of Contents
Section                                                                                                                                     Page

Executive Summary .........................................................................................................................1

Background ......................................................................................................................................4

Objectives ........................................................................................................................................7

Audit Results....................................................................................................................................8
       Finding A. Expired Grant Funds May Be Deobligated and Used
                      for Other Purposes ............................................................................................8
       Finding B. Maintenance of Official Grant Files Needs Improvement..............................21

List of Recommendations ..............................................................................................................26

Appendices
      A. Scope and Methodology...............................................................................................28
      B. Grants Selected for Review–Bureau of Educational and Cultural Affairs………..….35
      C. Grants Selected for Review–Bureau of Population, Refugees and Migration .............36
      D. Grants Selected for Review–Bureau of Administration, Office of Logistics
         Management, Office of Acquisitions Management .....................................................37
      E. Bureau of Educational and Cultural Affairs Response.................................................38
      F. Bureau of Population, Refugees and Migration Response ...........................................42
      G. Bureau of Administration, Office of Logistics Management, Office of
           Acquisitions Management, Response .........................................................................47
      H. Bureau of the Comptroller and Global Financial Services Response ..........................50

Major Contributors to This Report ................................................................................................55




                                                           UNCLASSIFIED
                                                UNCLASSIFIED


                                            Executive Summary
        As of March 1, 2012,1 the Department of State (Department) had approximately
$81.9 million in unspent funds linked to 955 expired grant accounts, as recorded in the Payment
Management System (PMS).2 PMS is a grants payment system owned and operated by the
Department of Health and Human Services (HHS) and used by Federal agencies to provide
grants officers and grant recipients the capability to manage payment requests, edit them for
accuracy and content, and transmit payments to the Federal Reserve Bank or the U.S. Treasury
for deposit into the grantee’s bank account. The Global Financial Management System (GFMS)
is the Department’s financial system used by domestic offices. The Office of Inspector General
(OIG) defines unspent funding as an obligation through a grant agreement that has yet to be
disbursed to the grant recipient, while OIG defines expired grant accounts as those for which 120
calendar days have elapsed since the end of a grant’s period of performance.

        OIG audited the grant closeout processes of three bureaus: the Bureau of Educational
and Cultural Affairs (ECA); the Bureau of Population, Refugees and Migration (PRM); and the
Bureau of Administration, Office of Logistics Management, Office of Acquisitions Management
(A/LM/AQM). These three bureaus were selected because, according to PMS, they collectively
accounted for approximately $67.4 million (82 percent) of $81.9 million of the Department’s
total unspent funds as of March 1, 2012.

        The primary objectives of this audit were to identify grant agreements that were more
than 120 days past a grant’s period of performance end date and to determine whether any
associated funds could be put to better use. OIG also reviewed the adequacy of official grant
files, which, if not accurate and complete, could negatively affect the ability of the Department to
properly close out grants. OIG’s original sampling plan called for a total sample of 60 grants
from the three bureaus (10 grants with unspent funds and 10 grants with zero balances from each
bureau). However, due to data limitations, OIG was only able to test 51 of the 60 grants3 using
the PMS account data for the largest amount of unspent balances4 and the oldest expired grants
with zero balances. Of the 60 grants to be tested against the official grants file, 10 files were
destroyed, three files were missing, and one grant file provided by the Department had the wrong
grant number and could not be appropriately reviewed. Therefore, only 46 grants could be
reviewed. Of those 46 grant files, only 37 of those files could be tested for compliance with
applicable Department policies and procedures in place at the time.

     As of March 1, 2012, OIG analysis of PMS data determined that ECA, PRM, and
A/LM/AQM were responsible for 865 of 955 expired grants that had not been closed. The 865
1
  For the purposes of this report, OIG’s analysis of Payment Management System (PMS) data as of March 1, 2012,
also included a 120-day closure period that is allotted to grants officials for grant closeout.
2
  As a result of the data deficiencies detailed in this report, the number and amount of expired grants that had not yet
been closed may be over or understated, and these grants may be attributed to entities other than the responsible
bureaus. Additional information on data limitations is included in Appendix A.
3
  After OIG selected its sample of 60 expired grants, OIG determined that nine grants were still active.
4
  During our initial analysis, OIG treated each of the 60 sampled lines from the database as grants. However, OIG
later determined the database listed transaction lines rather than grants. Therefore, OIG combined lines with the
same grant number to ultimately select 60 grants, which did not always result in the 10 grants with the largest
amount of unspent balances being chosen for each of the three bureaus.
                                                           1

                                                UNCLASSIFIED
                                               UNCLASSIFIED

expired grants totaled approximately $67.4 million in unspent funds. OIG also determined that
ECA, PRM, and A/LM/AQM were responsible for 1,155 (81 percent) of the Department’s
additional 1,421 expired grants with zero balances. Of the 60 grants in OIG’s sample as of
March 1, 2012, OIG determined that 22 grants had expired with unspent funds totaling
approximately $26.6 million, 29 grants had expired with zero balances that had not been closed
and deleted from PMS, and nine grants were still active.

        OIG found that expired grants with unspent funds and zero balances existed in PMS
because bureau officials and grants officers had not adequately complied with the Department’s
existing closeout policies and procedures to ensure that grants were properly closed out after
their periods of performance had ended. For the 22 expired grants with unspent funds totaling
$26.6 million reviewed by OIG, the appropriation periods determined whether associated funds
could be deobligated and used for other authorized purposes or if the funds were no longer
available for use. In addition, the Department had not established procedures for the periodic
review and reporting of expired grants; therefore, expired grants with zero balances had not been
properly closed and deleted from PMS, costing the three bureaus a combined total of
approximately $79,000 in unnecessary administrative fees in 2011.

        OIG also found that grants management personnel had not always adequately maintained
official grant files and that documents required for grant closeout were often missing,
incomplete, or inaccurate. OIG further determined that financial information in the official grant
files was not always consistent with the financial information recorded in PMS. This occurred
because grants officers and other responsible program and financial officials did not always fully
execute their responsibilities during the grant life cycle. Specifically, the grants officers did not
always maintain obligating documents, include grants officer representative (GOR) designation
memorandums in the files, obtain final financial reports, or reconcile grant funds during the grant
performance period. The lack of accurate and complete documentation during a grant’s life
cycle negatively affects the ability of the Department to properly close out grants.

        Based on OIG’s findings and an OIG inspection5 of ECA, Department officials took
immediate action to update and reinforce grant closeout policies and procedures and to close
expired grants in PMS. Specifically, the Bureau of Administration, Office of the Procurement
Executive, Federal Assistance Division (A/OPE/FA), proposed revisions to existing policy,
which included procedures to close an award when the recipient had not fully complied with the
final reporting terms and conditions of the award,6 and procedures for closing an award when the
recipient organization did not have its final Negotiated Indirect Cost Rate Agreements (NICRA)7

5
  Inspection of the Bureau of Educational and Cultural Affairs (ISP-I-12-15, Feb. 2012).
6
  Examples of noncompliance with the final reporting terms and conditions of a grant award would include a
recipient not providing a final program report to determine if the award objectives were achieved or a recipient not
reconciling its expenditures under the award, making it impossible to determine if a refund is owed to the
Department.
7
  GPD 41 states, “Organizations (usually U.S.-based organizations, although this can also apply to large non-U.S.
(foreign) organizations) whose funding is derived from federal assistance have the option of establishing indirect
cost rate agreements to capture ‘overhead’ or other administrative indirect costs. These rates are negotiated between
the organization and the ‘cognizant’ federal agency. Commonly, the cognizant federal agency is the agency that
provides the largest dollar volume of federal assistance funds to the organization. The resulting NICRA is binding
on the entire U.S. government.”
                                                         2

                                               UNCLASSIFIED
                                       UNCLASSIFIED

within 24 months after the end of the project period end date or before the cancellation of the
appropriation used to fund the award, whichever came first. These proposed revisions became
effective with the issuance of the latest version of Grants Policy Directive (GPD) 41, Revision 2,
“Close-Out of Federal Assistance Awards,” dated January 2, 2013. Additionally, the three
bureaus reviewed by OIG took action to close expired grants in PMS. Specifically, as of
December 2012, 22 of 51 expired grants, which included 6 with unspent funds and 16 with zero
balances, that were included in OIG’s original sample and that were eligible for closeout in PMS
had been closed by bureau officials. Therefore, available funds could potentially be put to better
use and unnecessary administrative fees would no longer be paid.

        OIG recommended that ECA, PRM, and A/LM/AQM continue to work to close the
remaining 16 expired grants from OIG’s original sample in PMS – with total unspent balances in
GFMS of approximately $9.4 million – and close the remaining 1,139 zero balance grants in
PMS, which includes 13 from OIG’s sample. According to PMS, the three bureaus have
approximately $40.5 million in unspent funds associated with additional expired grants that
should also be reviewed and closed as part of this effort. Prioritizing the closeout of expired
grant accounts could allow the bureaus to identify and redirect unused funds to other projects and
priorities, as authorized. OIG also recommended that the three bureaus, in cooperation with the
Bureau of Administration, Office of the Procurement Executive (A/OPE), (1) develop
performance metrics for bureau grants officers and GORs that will provide for timely grant
closeout of expired grants while reducing the current backlog and (2) establish specific
procedures that require grants officers and GORs to periodically report to their respective
bureaus on the progress for timely closeout of expired grants. Finally, OIG recommended that
the three bureaus develop procedures to periodically review respective official grant files to
determine compliance with Department policies.

       OIG provided ECA, PRM, and the Bureau of Administration a draft of this report on
May 6, 2013. ECA, in its May 31, 2013, response (see Appendix E) to the draft report,
concurred with five recommendations but did not concur with one recommendation (No. 11);
PRM, in its May 31, 2013, response (see Appendix F), concurred with six recommendations;
and A/LM/AQM, in its May 29, 2013, response (see Appendix G), concurred with six
recommendations.

       Based on management’s responses, OIG considers Recommendations 1–10 and 12
resolved. However, each recommendation will remain open until documentation is provided
showing that the recommendations have been fully implemented. OIG considers
Recommendation 11 unresolved, but this recommendation can also be closed when OIG reviews
and accepts documentation showing the actions taken to implement the recommendation or an
acceptable alternative action is offered. Management’s responses to the recommendations and
OIG’s replies are presented after each recommendation.

        Although OIG did not address any recommendations to the Bureau of the Comptroller
and Global Financial Services (CGFS), OIG did provide a draft of this report to that bureau on
May 6, 2013. On June 3, 2013, CGFS provided comments (see Appendix H), stating that the
Department would continue its efforts to put emphasis on closeouts and on improving the
internal controls in GFMS and PMS for the closeout process. CGFS further stated that it was
                                                3

                                       UNCLASSIFIED
                                                UNCLASSIFIED

able to verify that 28 of 29 zero balance grants from OIG’s March 1, 2012, sample for ECA,
PRM, and A/LM/AQM would be reflected as closed in July 2013. CGFS concluded that it
remained committed to working with the bureaus to resolve, close, and deobligate funds for the
remaining grants and to actively monitor those grants that were eligible for closeout.

                                                  Background
        Federal agencies provide grants, direct services, and loans through nongovernmental
organizations to accomplish a public purpose. Federal financial assistance can be provided to
eligible recipients through grants and cooperative agreements.8 As shown in Figure 1, the
Department has experienced significant growth in the amount of financial assistance it allocated
from FY 2002 to FY 2010. According to the Department, about one third of its budget was
devoted to providing financial assistance, which was generally equivalent to the amount the
Department spent on acquisitions.

                 Figure 1. Department of State Assistance Funding - FYs 2002–2010
                                       (amounts in billions)


     $12.0

     $10.0

      $8.0

      $6.0

      $4.0

      $2.0

        $-
                 FY02     FY03      FY04      FY05      FY06      FY07    FY08      FY09      FY10

Source: Bureau of the Comptroller and Global Financial Services, Office of Federal Assistance Financial
Management (DCFO/FAFM).


Grant Closeout Process

        The grant closeout process was succinctly described in an April 2012 Government
Accountability Office (GAO) report, Grants Management: Action Needed to Improve the
Timeliness of Grant Closeouts by Federal Agencies (GAO-12-360). Specifically, the report
states:

             Agency regulations issued under [Office of Management and Budget (OMB)
             Circular A-110] typically impose closeout procedures upon both the awarding

8
    Cooperative agreements are managed using grants-related policies.
                                                          4

                                                UNCLASSIFIED
                                               UNCLASSIFIED

           agency and the grantee. Generally, within 90 days after the completion of the
           award, grantees must submit all financial, performance, and other reports as
           required by the terms and conditions of the award. Also within this 90-day
           period, grantees generally are to liquidate all obligations incurred under the
           award. Grantees then are to promptly refund any remaining cash balances to the
           awarding agency. Awarding agencies must make prompt payments, often defined
           as within 90 days, to grantees for allowable reimbursable costs under the award
           being closed out. Also, if allowed by the terms and conditions of the award, the
           awarding agency must make a settlement for any upward or downward
           adjustment to the federal share of costs after the closeout reports are received.

Department of State Policies for Grant Closeout

        The Department’s Federal Assistance Policy Handbook9 contains internal guidance,
policies, and standards for the distribution and management of Department assistance awards.
Specifically, it states, “A/OPE/FA develops policy and provides training and career development
for personnel involved with the award and management of federal assistance through the
Department.” It also states that the DCFO/FAFM provides leadership on the financial
management of grants and other types of financial assistance through policy development and
oversight. In addition, DCFO/FAFM is the Department’s liaison with HHS regarding PMS,
which is the electronic payment system used by most domestic/U.S.-based grant recipients.

       According to its Web site,10 A/OPE/FA “prescribes policies, procedures, and standards
regarding the solicitation, award, and administration of all Departmental Federal assistance
programs,” including grants and cooperative agreements. This is often accomplished through the
issuance of policy directives, such as the following:

        GPD 28, “Roles and Responsibilities for the Award and Administration of Federal
Assistance,” Revision 1, dated September 21, 2010, “establishes the roles and responsibilities of
the offices and personnel involved in the announcement, evaluation, award, and administration
of assistance awards through the Department of State.” Specifically, it states that “the grants
officer exercises prudent management over assistance funds…[and] carries out all other
responsibilities, including closeout, as required.”

       GPD 16, “Designation of Grants Officer Representatives,” Revision 3, dated January 2,
2013, designates the responsibilities of a GOR. In addition to stating that a GOR must be
designated in writing, GPD 16 requires GORs to do the following:

                  Oversee certain aspects of a specific assistance agreement from the award
                   inception through closeout.
                  Understand the terms and provisions of the assistance award.
                  Ensure compliance with all terms and conditions of the award.


9
    Department of State, Federal Assistance Policy Handbook, Version 1.2, March 2011.
10
    http://aopefa.a.state.gov, accessed on June 19, 2012.
                                                         5

                                               UNCLASSIFIED
                                              UNCLASSIFIED


                Work collaboratively with the grants officer, budget officer, and program officer
                 to approve payments.
                Assist the grants officer in project closeout review.
                Evaluate final recipient progress and financial reports.11

         GPD 41, “Close-Out of Federal Assistance Awards,” Revision 2, dated January 2, 2013,
outlines the Department’s procedures for closing out domestic and overseas grants. GPD 41
states, “The closeout procedure is the critical final step in the award life cycle that is required
when the activity or activities have been completed, and/or the award period of performance has
ended. It is an essential and integral part of the grants officer’s responsibility that, when taken in
a timely manner, positively affects the Department’s overall federal assistance management.”
While the grantees are given a 90-day period to execute their remaining responsibilities, GPD 41
further prescribes that the grants officer complete the closeout of an award within 30 days of
receipt of the final report from the recipient (or within 120 days after the end of the award period
of performance).

Financial Management of Grants

        Grants officers and grant recipients manage domestic grant payment requests and
disbursement activities through PMS. PMS, administered by HHS and used by other Federal
agencies, provides the grants officer and the grant recipient the capability to manage payment
requests, edit them for accuracy and content, and transmit payments to the Federal Reserve Bank
or the U.S. Treasury for deposit into the grantee’s bank account. During FY 2011, HHS charged
the Department an annual fee of $68.31 per grant in PMS.

         GFMS is the Department’s financial system used by domestic offices. When the
Department awards a grant, the responsible bureau enters the award information into GFMS and
creates the official obligation.12 According to the Foreign Affairs Handbook,13 when a bureau
obligates funds for grants or cooperative agreements that will be paid using PMS, the bureau
must request that HHS create a subaccount for the grant, and the bureau then enters the award
authorization amount in PMS. Grants with payments processed through PMS must complete a
reconciliation between PMS and GFMS before continuing with the final closeout.

         The Department issues grants with annual budget authority that lasts for up to one fiscal
year, multi-year authority that lasts for longer periods, and no-year authority that remains
available for obligation until the funds are entirely expended for designated purposes. As
illustrated in Figure 2, the grant closeout process can result in the redirection of unspent funds14



11
   Within 90 days after the end of the award, the grant recipient is required to submit final financial and program
reports so proper closeout procedures can be applied.
12
   An obligation is a definite commitment that creates a legal liability of the government to the grantee.
13
   4 FAH-3H-653.2, “Establish Payment Authorization in PMS.”
14
   OIG defines unspent funding as an obligation through a grant agreement that has yet to be disbursed to the grant
recipient, while OIG defines expired grant accounts as those for which 120 calendar days have elapsed since the end
of a grant’s period of performance.
                                                         6

                                              UNCLASSIFIED
                                                UNCLASSIFIED

to other Department projects and activities, depending on a grant’s period of availability and
budget authority.15

           Figure 2. Deobligating Undisbursed Balances in Expired Grant Accounts




Source: GAO-12-360, Apr. 2012.

                                                   Objectives
        The primary objectives of this audit were to identify grant agreements that were more
than 120 days past a grant’s period of performance end date and to determine whether any
associated funds could be put to better use. OIG also reviewed the accuracy and completeness of
official grant files, which are critical elements in achieving timely grant closeout.

       OIG’s ability to obtain a reliable database of expired grants was impacted by
questionable data, resulting in the data deficiencies detailed in this report. Specifically, the
number and amount of expired grants that had not yet been closed may be either over or
understated, and these grants may be attributed to entities other than the responsible bureaus.
OIG took steps to mitigate the data shortcomings, although deficiencies remain. Nevertheless,
OIG believes that the problems concerning grants management identified during this audit are
noteworthy to warrant the issuance of this formal report; however, OIG advises that the figures
should be interpreted and used cautiously because of the noted data limitations. Additional
information on the data limitations is included in Appendix A.

15
  31 U.S.C. § 1552, “Procedure for appropriation accounts available for definite periods,” states that “[o]n
September 30th of the 5th fiscal year after the period of availability for obligation of a fixed appropriation account
ends, the account shall be closed and any remaining balance (whether obligated or unobligated) in the account shall
be canceled and thereafter shall not be available for obligation or expenditure for any purpose” and that
“[c]ollections authorized or required to be credited to an appropriation account, but not received before closing of
the account under subsection (a) or under section 1555 of this title, “Closing of appropriation accounts available for
indefinite periods,” shall be deposited in the Treasury as miscellaneous receipts.”
                                                          7

                                                UNCLASSIFIED
                                               UNCLASSIFIED


                                                Audit Results

Finding A. Expired Grant Funds May Be Deobligated and Used for Other
Purposes
        OIG analysis of PMS data as of March 1, 2012,16 found that ECA, PRM, and
A/LM/AQM had 865 expired17 grants18 with unspent funds totaling approximately $67.4 million
that had not been closed. PMS also reported that ECA, PRM, and A/LM/AQM had 1,155
expired grants that had zero19 balances. OIG selected 60 expired grants in its sample for review,
but subsequently learned that nine of those grants were still active and not eligible for closeout
procedures.20 According to PMS, of the 51 expired grants that OIG reviewed, 22 had unspent
funds totaling approximately $26.6 million and 29 expired grants had zero balances that had not
been closed and deleted from PMS. However, according to GFMS, those same 22 grants as of
March 1, 2012, had unspent funds of approximately $15.6 million that had not been deobligated. 

        Expired grants with unspent funds and zero balances existed in PMS because ECA, PRM,
and A/LM/AQM officials and grants officers had not always complied with the Department’s
closeout policies and procedures to ensure that grants were properly closed after performance
periods had ended. Specifically, bureau officials had not always obtained final financial reports
or final NICRAs from their recipients, were not always able to get all accounts to balance in
PMS,21 and had not always maintained proper oversight of grants to ensure timely closeout. In
addition, the Department had not established procedures for the periodic review and reporting of
expired grants; therefore, expired grants with zero balances had not been properly closed and
deleted from PMS, costing the three bureaus a combined total of approximately $79,000 in
unnecessary administrative fees in 2011.

       As a result, according to GFMS as of March 1, 2012, the 22 expired grants with unspent
funds totaling approximately $15.6 million had not been deobligated and used for other
authorized purposes. In addition, according to PMS data as of March 1, 2012, ECA, PRM, and
A/LM/AQM, had additional expired grants with approximately $40.8 million in associated
unspent funds that may also be deobligated and redirected for other authorized purposes.


16
   For the purposes of this report, OIG’s analysis of PMS data as of March 1, 2012, also included a 120-day closure
period that is allotted to grants officials for grant closeout.
17
   OIG defines expired grant accounts as those for which 120 calendar days have elapsed since the end of a grant’s
period of performance.
18
   During initial analysis, OIG treated each of the 60 sampled lines from the PMS database as individual grants.
However, OIG later determined that each line of PMS data reflected grant transaction lines rather than individual
grants. As a result, OIG combined multiple transaction lines (by grant number) to form a comprehensive picture of
the grants represented in the sample. Additional information on data limitations is included in Appendix A.
19
   For purposes of this report, zero balances also include negative balances. Negative balances are caused by funds
being overdrawn on a transaction line. However, negative balances occurring in this audit’s universe were
negligible, so negative balances were not addressed.
20
   Of the nine active grants, six grants had extended periods of performance that the bureaus had not entered in the
PMS database and three grants were mistakenly chosen by OIG.
21
   The accounts that must balance in PMS are the authorization account, the disbursement account, and the
drawdown account.
                                                          8

                                               UNCLASSIFIED
                                            UNCLASSIFIED


Universe of Expired Grants With Unspent Funds

       As of March 1, 2012, PMS data, as analyzed by OIG, indicated that the Department had
955 expired grants with unspent funds totaling approximately $81.9 million. From that universe,
ECA, PRM, and A/LM/AQM had a total of 865 expired grants with unspent balances totaling
approximately $67.4 million, which represented 82 percent of all unspent funds associated with
the Department’s grants. In addition, the three bureaus had a total of 1,155 (81 percent) of the
Department’s 1,421 expired grants with zero balances recorded in PMS, as shown in Table 1.

              Table 1. Expired Grants With and Without Unspent Balances
                                 (as of March 1, 2012)
                                             Number of                          Percentage    Number
                                            Grants With                         of Total of   of Zero
                                              Unspent             Unspent        Unspent      Balance
                  Bureau                      Amounts             Amounts        Amount       Grants
  Bureau of Educational and Cultural
  Affairs                                              402        $29,173,274         35.61       365
  Bureau of Population, Refugees and
  Migration                                            212        $21,549,321         26.30       436
  Bureau of Administration, Office of
  Logistics Management, Office of
  Acquisitions Management                              251        $16,691,532         20.37       354
  Bureau of Near Eastern Affairs                        21         $5,970,684          7.29        27
  Bureau of Diplomatic Security                          4         $4,560,301          5.57         9
  Bureau of International Narcotics and
  Law Enforcement Affairs                                 12       $2,556,659          3.12        13
  Bureau of Political-Military Affairs                    28        $933,346           1.14       168
  Office to Monitor and Combat
  Trafficking in Persons                                  23        $400,929            .49        45
  Bureau of African Affairs                                1         $96,546            .12         1
  Bureau of Oceans and International
  Environmental and Scientific Affairs                     1          $2,334            .00         3
                   Total                               955     $81,934,926             100      1,421
 Source: OIG analysis of PMS account data, as of March 1, 2012.

        From the PMS database, OIG judgmentally selected for review a total of 60 expired
grants, or 20 expired grants each from ECA, PRM, and A/LM/AQM. At each bureau, 10 grants
with unspent balances and 10 grants with zero balances were chosen. OIG requested official
grant files for the 10 grants with the highest unspent balances and for the 10 grants with zero
balances that had the oldest performance period end dates. During OIG’s review of the official
grant files, OIG learned that nine of 60 grants selected were active. Therefore, OIG’s review of a
sample of expired grants in PMS was limited to 51 expired grants. The 60 grants selected for
review for ECA, PRM, and A/LM/AQM are summarized in Appendices B, C, and D,
respectively.




                                                      9

                                            UNCLASSIFIED
                                              UNCLASSIFIED


Closeout of Expired Grants With Unspent Funds

       OIG reviewed a sample of 51 ECA, PRM, and A/LM/AQM expired grants from the PMS
database and found 22 grants that had unspent funds of $26.6 million. However, according to
GFMS, those same 22 grants had approximately $15.6 million in unspent funds as of March 1,
2012. Of the 22 grants, depending on the appropriation period, associated funds may be
deobligated in GFMS and used for other authorized purposes. If closeout action is not initiated
as soon as possible, the three bureaus could lose the opportunity to use the remaining unspent
funds in GFMS that are available to the Department for other authorized program activities.

        ECA Grants With Unspent Funds

        In OIG’s sample of 10 ECA expired grants with unspent funds, OIG found that nine
grants, according to PMS, totaling approximately $10.4 million in unspent funds, should have
been closed. However, according to GFMS, those same nine ECA grants had approximately
$5.3 million in unspent funds as of March 1, 2012. Before continuing with the final closeout of
these nine grants, ECA should reconcile the PMS database with GFMS to determine the exact
amount that could be deobligated and used for other purposes.

        As shown in Table 2, the nine grants included six grants with no-year funds and three
grants which could not be determined. The appropriation periods for the six grants with no-year
funds were still available and funds totaling $4.7 million in GFMS should be deobligated and
used for other designated purposes. For the three grants with undetermined appropriation
periods, ECA needs to identify whether the $619,850 in unspent funds could be deobligated and
used for other authorized purposes. The remaining grant (No. SECAAL09CA176) of the 10
selected grants with unspent funds was still active.

                        Table 2. Expired ECA Grants With Unspent Funds
                              Type of         Unspent Funds          Unspent Funds
 Grant Number                 Funds                 in PMS                in GFMS            Difference
 SECAPV09CA006                 No-year                $776,719               $776,719                 $0
 SECAPY08GR196                 No-year                $763,650               $763,650                 $0
 SECAPV10CA016                 No-year              $1,053,748             $1,053,748                 $0
 SECAPV08CA011                 No-year                $752,896               $752,896                 $0
 SECAPY07GR152                 No-year                $681,459               $681,459                 $0
 SECAAS07CA039                 No-year               $641,576               $641,576                  $0
                                                    $4,670,048             $4,670,048                 $0
 PYCS0341                  Undetermined             $3,985,485                     $0         $3,985,485
 SECAAE05CA021             Undetermined              $936,568                  $4,514          $932,054
 SECAPV08CA017             Undetermined              $760,040               $615,336           $144,704
                                                    $5,682,093               $619,850         $5,062,243
        Totals*                                 $10,352,141              $5,289,898         $5,062,243
Source: OIG analysis of PMS and GFMS account data as of March 1, 2012, and ECA grant files.
*
  During this audit, ECA reduced the total amount of unspent funds that could be closed in PMS from
$10.4 million to $9.6 million. ECA also reduced the total amount of unspent funds in GFMS from
$5.3 million to $3.3 million.
                                                       10

                                              UNCLASSIFIED
                                      UNCLASSIFIED

       As of March 1, 2012, OIG analysis of PMS data determined that ECA had an additional
393 expired grants, with unspent funds totaling approximately $18.8 million, beyond what was
included in OIG’s sample. These additional expired grants should be reviewed to determine
whether those funds can also be deobligated and used for other purposes.

        A February 2012 OIG Office of Inspections report22 on ECA recommended that ECA
implement a plan to close out outstanding grants that were more than 24 months past their end
date. In response to the recommendations, ECA identified about 500 outstanding grants that
were more than 24 months past their end date. In ECA’s compliance response to the report,
ECA stated that most awards remained open because of outstanding NICRA issues. The
response further stated that the ECA Grants Division had hired grants specialists who would
place a high priority on closing out these older grants.

           PRM Grants With Unspent Funds

       In OIG’s sample of 10 PRM expired grants with unspent funds, OIG found that according
to PMS, approximately $13.4 million in funds had not been expended. However, according to
GFMS as of March 1, 2012, those same 10 PRM grants had approximately $10.3 million in
unspent funds. Before continuing with the final closeout of these 10 grants, PRM should
reconcile the PMS database with GFMS to determine the exact amount that could be deobligated
and used for other purposes.

        As shown in Table 3, the appropriation periods for the 10 PRM grants had not expired
because they were no-year funds, and as a result, the Department could use the $10.3 million in
unspent funds for other authorized purposes. However, as of December 2012, PRM closed four
of these grants in PMS reducing the amount to be closed to $8.4 million, and showed zero
balances for five of these grants in GFMS, reducing the unspent funds in GFMS to $6.1 million.




22
     ISP-I-12-15.
                                              11

                                      UNCLASSIFIED
                                                UNCLASSIFIED


                         Table 3. Expired PRM Grants With Unspent Funds
                                  Type of       Unspent Funds           Unspent Funds
     Grant Number                 Funds               in PMS                 in GFMS             Difference
     SPRMCO09CA018                No-year              $3,083,124                     $0          $3,083,124
     SPRMCO10CA040                No-year              $2,242,029             $2,242,029                  $0
     SPRMCO09CA012                No-year              $1,580,485             $1,580,485                  $0
     SPRMCO08CA008                No-year              $1,443,786             $1,443,786                  $0
     SPRMCO10CA018                No-year              $1,147,779             $1,147,779                  $0
     SPRMCO09CA022                No-year              $1,138,686             $1,138,686                  $0
     SPRMCO10CA020                No-year               $905,882               $905,882                   $0
     SPRMCO09CA017                No-year               $807,308               $807,308                   $0
     SPRMCO08CA016                No-year               $576,781               $576,781                   $0
     SPRMCO09CA011                No-year               $436,865               $436,865                   $0
             *Totals                                $13,362,725             $10,279,601          $3,083,124
     Source: OIG analysis of PMS and GFMS account data as of March 1, 2012, and PRM grant files.
 *
     During this audit, PRM reduced the total amount of unspent funds that could be closed in PMS from
     $13.4 million to $8.4 million. PRM also reduced the total amount of unspent funds in GFMS from
     $10.3 million to $6.1 million.

       As of March 1, 2012, OIG analysis of PMS data determined that PRM had an additional
202 expired grants, with unspent funds totaling approximately $8.2 million, beyond what was
included in OIG’s sample. These additional expired grants should be reviewed to determine
whether funds associated with these grants can also be deobligated and used for other purposes.

        Prior to OIG’s commencement of audit fieldwork, PRM engaged the services of a public
accounting firm to assist in closing out more than 500 expired grants. Based on the accounting
firm’s results, PRM notified the grant recipient as to whether the recipient was owed or owed
money to the Department, and PRM subsequently deobligated any remaining unspent funds.
Prior to March 1, 2012, timely grant closeouts allowed PRM to potentially reprogram unspent
funds for other authorized purposes. In total, as of January 2012, unspent funds of about
$16 million were deobligated as a result of this effort.

            A/LM/AQM Grants With Unspent Funds

        OIG selected a sample of 10 A/LM/AQM expired grants in PMS with unspent funds for
review. However, OIG subsequently learned that one of the 10 A/LM/AQM grants with zero
balances selected for review actually had unspent funds.23 Therefore, OIG sampled 11
A/LM/AQM grants from the PMS database with unspent funds and found that eight of the 11
sampled grants were active. Of the eight active grants, six were erroneously listed in PMS as
“inactive” and the other two grants were mistakenly added into OIG’s sample. The remaining
three expired grants had unspent funds totaling approximately $2.9 million in PMS that should
be closed. However, those same three expired grants had no unspent funds (zero balances) in
GFMS. Before continuing with the final closeout of those three grants, A/LM/AQM should

23
 The error in OIG’s sample selection was due to data limitations that were later identified during OIG’s review of
PMS data and individual grant files. Additional information is included in Appendix A.
                                                          12

                                                UNCLASSIFIED
                                               UNCLASSIFIED

reconcile the PMS database with GFMS to determine why PMS does not reflect zero balances
for the three grants.

        As shown in Table 4, the three expired grants with unspent funds included one grant with
multi-year funds, one grant with one-year funds, and one where the type of funds could not be
determined. For the two grants with multi- and one-year funds, the appropriation periods for
these grants had ended and GFMS showed a zero balance as of March 1, 2012, signifying that
those funds were no longer available for use. The grant for which funds could not be determined
was closed by A/LM/AQM in December 2012.

                    Table 4. Expired A/LM/AQM Grants With Unspent Funds
                               Type of           Unspent Funds          Unspent Funds
 Grant Number                  Funds                   in PMS                in GFMS            Difference
 SLMAQM04GR038               Multi-year                 $2,226,594                     $0        $2,226,594
 SLMAQM03H0048                One-year                    $217,626                     $0          $217,626
 SLMAQM06GR045*             Undetermined                  $416,772                     $0          $416,772
        Totals                                         $2,860,992                      $0       $2,860,992
Source: OIG analysis of PMS and GFMS account data as of March 1, 2012, and AQM grant files.
*
  During this audit, A/LM/AQM reduced the total amount of unspent funds that could be closed in PMS from
$2.9 million to $2.4 million (difference due to rounding).

       As of March 1, 2012, OIG analysis of PMS data determined that A/LM/AQM had an
additional 248 expired grants with unspent funds totaling approximately $13.8 million beyond
what was included in OIG’s sample. These additional expired grants should be reviewed to
determine whether funds associated with those grants can also be deobligated and used for other
purposes.

Closeout of Expired Grants With Zero Balances

        As of March 1, 2012, PMS data as analyzed by OIG reported that 1,421 Department
grants were expired with zero balances. Of the 1,421 grants, 1,155 grants belonged to ECA
(365), PRM (436), and A/LM/AQM (354).24 PMS showed that, for OIG’s sample, the periods of
performance for these associated grants had been expired from 8 to 20 years. The total of 1,155
expired grants with zero balances for ECA, PRM, and A/LM/AQM is significant because these
inactive grant accounts continued to incur annual PMS account fees of approximately $68.31 per
account, or approximately $79,000 annually25 for the three bureaus.

Management Emphasis Needed for Timely Grant Closeout and Grants Officer
Accountability

       ECA, PRM, and A/LM/AQM officials and bureau grants officers did not always comply
with Department closeout policies and procedures to ensure that grants were closed after their


24
   As of December 2012, ECA closed six grants, PRM closed three grants, and AQM closed seven grants from
OIG’s sample, resulting in remaining zero balance grants of 359, 433, and 347 for the three bureaus, respectively.
25
   The $68.31 individual grant fee and the $79,000 total were the fees charged for grants in PMS in 2011.
                                                         13

                                               UNCLASSIFIED
                                              UNCLASSIFIED

performance periods had ended. The Foreign Affairs Handbook26 (FAH) requires bureaus to
make prompt payment to the grant recipient for allowable and reasonable costs still owed under
the award being closed out. Conversely, the Department should collect all funds owed by the
grant recipient at the end of a grant’s period of performance. GPD 41, Revision 2, dated
January 2, 2013, requires the grant recipient to submit all final financial and program reports
required by a grant’s terms and conditions within 90 calendar days after the end of the grant’s
period of performance.27 Once the grants officer receives these documents, the grants officer has
30 calendar days to do the following:

            Reconcile any cost or expenditure discrepancies.
            Pay any allowable costs.
            Collect any unexpended funds or disallowed costs.
            Request that the bureau financial management officer or budget officer deobligate
             any excess funds.

        However, ECA, PRM, and A/LM/AQM officials stated that grant closeout had been
difficult because of limited staff and troubles encountered with obtaining the proper documents
from the grantee. For example, an A/LM/AQM grants officer stated that at one time he was
responsible for the administration and oversight of over 500 grants. In another instance, an ECA
official stated that when the U.S. Information Agency merged with the Department, the
Department did not have the expertise to manage such a dramatic increase in new grant awards
while continuing to administer the expiring grants. Therefore, without proper oversight and a
prompt review of grant costs, the Department could not be assured that recipients used grant
funds for authorized purchases or program activities. In addition, the grant recipient may not
have spent the full amount advanced to the project, or the award activities may have cost less
than what was anticipated. In those cases, the Department is required to collect all unused funds.

        Although the Department had procedures for closing out grants, the Department had not
established specific procedures for the periodic review and reporting of expired grant accounts.
The Department’s grants officers and GORs did not periodically query available PMS reports on
expired funds as part of the grant closure process. Therefore, without periodic queries, the
bureaus that administer grants cannot ensure that PMS accounts are accurate and up to date. In
addition, this weakness may expose the Department to waste, fraud, and mismanagement.

        To improve the financial management of grant funds, a metrics program for grant closure
could provide focus in improving performance. The metrics to be developed by bureau
supervisors for grants officers and GORs should draw attention to this financial management
problem by setting performance goals and encouraging staff to be innovative in attaining the
overall goal of providing timely closeout of expired grants while reducing the current backlog.
For a metrics program to be effective, the metrics should be well defined, capable of being
properly measured, and able to be verified.

26
  4 FAH-3 H-680, “Closeout,” and 4 FAH-3 H-682, “Procedures.”
27
  Reporting requirements are also required by the Code of Federal Regulations, Title 22, “Foreign Relations,”
pt. 145, sbpt. D, §145.71, “Closeout procedures,” and 4 FAH-3 H-682, “Procedures,” both of which also state that
extensions may be approved when requested by the recipient.
                                                       14

                                              UNCLASSIFIED
                                       UNCLASSIFIED


Management Action Taken To Prioritize the Closing of Grants

        Since OIG began this audit, the Department had taken action to close out expired grants
in PMS. Specifically, as of December 2012, according to bureau officials, the bureaus had
closed 22 of 51 grants selected by the OIG for review that were eligible for closeout. (The
dispositions of the grants in OIG’s sample, as of December 2012, are provided in Appendices B,
C, and D.) The bureaus also attempted to close other expired grants that were unsuccessful
because of reasons outside of the Department’s control. For example, the grant recipient is
required to submit its final NICRA and final financial and progress reports before grants officers
can properly close a grant. If these documents are not received in a timely manner, the grants
officer cannot ensure that costs and payments are finalized or that the program was conducted in
accordance with the goals of the award and therefore cannot properly close the grant.

        Further, the grants officer must also review the amounts in PMS (the authorized,
disbursed, and drawdown amounts) and ensure that all three amounts agree before closeout
procedures can be applied. The three amounts in PMS for a particular grant do not always agree
for various reasons. For example, for Grant SPRMCO03CA101, the authorized amount and
drawdown accounts balanced, but the disbursement account was understated by 25 cents. PRM
contacted the grant recipient to request that it make an adjustment in PMS, but the recipient had
been nonresponsive. PRM subsequently requested that HHS manually adjust the disbursement
amount so the grant could be closed, but as of December 2012, the adjustment had not been
made.

       When attempts to close grants were unsuccessful, expired grants continued to age and
expired grant funds remained inactive. Further, unnecessary administrative fees continued to be
charged for open grants in PMS on an annual basis. In times of fiscal austerity, the opportunity
to make expired grant funds available for other authorized uses is significant for ECA, PRM, and
A/LM/AQM. Elevating the priority of closing out expired grant accounts could allow the
bureaus to identify and redirect unused funds, as authorized, or to ensure unspent balances are
properly deposited with the U.S. Treasury.

       Recommendation 1. OIG recommends that the Bureau of Educational and Cultural
       Affairs review the remaining eight expired grants from the March 1, 2012, OIG sample
       and (a) reconcile the approximately $9.6 million in the Payment Management System
       (PMS) to the approximately $3.3 million recorded in the Global Financial Management
       System to appropriately deobligate and potentially use available funds for other
       designated purposes and (b) subsequently close those grants in PMS to avoid unnecessary
       administrative fees.

       ECA Response: ECA concurred with the recommendation, stating that it had tasked its
       Grants and Budget Division with immediate reconciliation and closeout of grants
       consistent with the requirements imposed in GPD 41. In an attachment to its response,
       ECA provided the statuses of the eight expired grants from OIG’s March 1, 2012, sample
       that were discussed in Recommendation 1. Of the eight awards, three were closed in
       PMS, two were in the closeout process, one was partially closed, and two remained open.
       ECA also noted the additional steps it had taken to reduce the total number of outstanding
                                                15

                                       UNCLASSIFIED
                               UNCLASSIFIED

awards, to include performing final reconciliations, matching the funds in GFMS with
funds in PMS and with financial reports, and moving awards to final deobligation.

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing, for the five expired grants
from OIG’s sample that were either closed or were in the closeout process, that ECA has
reconciled the remaining funds in PMS to the remaining funds in GFMS and has
appropriately deobligated associated funds and that ECA has also closed those five grants
in PMS. OIG also requests, for the remaining three expired grants from OIG’s sample
that were either partially closed or open, documentation showing that ECA has reconciled
the remaining funds in PMS to the remaining funds in GFMS and has appropriately
deobligated associated funds and that ECA has also closed those three grants in PMS
once those actions have been taken.

Recommendation 2. OIG recommends that the Bureau of Educational and Cultural
Affairs (a) review the remaining 393 expired grants, totaling approximately
$18.8 million, in the Payment Management System (PMS) as of March 1, 2012, to
determine whether the funds associated with those grants can be deobligated in the
Global Financial Management System and used for other purposes and (b) subsequently
close those grants in PMS to avoid unnecessary administrative fees.

ECA Response: ECA concurred with the recommendation, stating that it had tasked its
Grants and Budget Division with immediate reconciliation and closeout of grants
consistent with the requirements imposed in GPD 41. ECA specifically stated that
through mitigating steps implemented throughout 2012, it had reduced the reported
number of expired and/or inactive grants from this recommendation, 393 grants, by more
than 170 grants subsequent to OIG’s audit.

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing, for the more than 170
grants closed in PMS subsequent to OIG’s audit, that funds associated with those grants
were deobligated in GFMS and that those grants were closed in PMS. For the remaining
grants, OIG needs to review and accept documentation showing ECA’s ongoing efforts to
review, reconcile, and close those grants accordingly.

Recommendation 3. OIG recommends that the Bureau of Educational and Cultural
Affairs close the remaining 359 zero balance grants that have expired in the Payment
Management System as of March 1, 2012, to avoid unnecessary administrative fees.

ECA Response: ECA concurred with the recommendation, stating that it had tasked its
Grants and Budget Division with immediate reconciliation and closeout of grants
consistent with the requirements imposed in GPD 41.

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing that the remaining
359 zero balance grants as of March 1, 2012, have been closed in PMS.
                                       16

                               UNCLASSIFIED
                                UNCLASSIFIED

Recommendation 4. OIG recommends that the Bureau of Population, Refugees and
Migration review the remaining six expired grants from the March 1, 2012, OIG sample
and (a) reconcile the approximately $8.4 million in the Payment Management System
(PMS) to the approximately $6.1 million recorded in the Global Financial Management
System to appropriately deobligate and potentially use available funds for other
designated purposes and (b) subsequently close those grants in PMS to avoid unnecessary
administrative fees.

PRM Response: PRM concurred with the recommendation, stating that it had
reconciled the PMS records to the GFMS records for the awards in question and had
made the appropriate adjustments. Specifically, PRM stated that for the 10 awards listed
in Table 3 of OIG’s report, five had final closeout amendments issued and accepted.
PRM further stated that for the remaining five awards, three involved one organization
that was working with PRM to submit final financial reports based on final audits and
that those three awards would be closed upon receipt of the final financial reports. PRM
explained that the remaining two awards involved one organization that was working to
receive its final NICRAs, which would enable the organization to submit its final
financial reports, and that these two awards would be closed upon receipt of the final
financial reports. PRM concluded that for the five remaining awards, it had received or
anticipated receiving refunds and that maintaining the open PMS accounts associated
with these awards was a useful tool and reminder to both the grantee and PRM that
closeout work remains to be accomplished.

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing, for the one award that
was closed in PMS after December 2012, that PRM has reconciled the remaining funds in
PMS with the remaining funds in GFMS and has appropriately deobligated associated
funds and that PRM has also closed that grant in PMS. For the remaining five expired
grants from OIG’s sample that PRM is working to close, OIG needs to review and accept
documentation showing that PRM has reconciled the remaining funds in PMS with the
remaining funds in GFMS and has appropriately deobligated associated funds and that
PRM has also closed those five grants in PMS once those actions have been taken.

Recommendation 5. OIG recommends that the Bureau of Population, Refugees and
Migration (a) review the remaining 202 expired grants, totaling approximately
$8.2 million, in the Payment Management System (PMS) as of March 1, 2012, to
determine whether the funds associated with those grants can be deobligated in the
Global Financial Management System and used for other purposes and (b) subsequently
close those grants in PMS to avoid unnecessary administrative fees.

PRM Response: PRM concurred with the recommendation, stating that it continued to
prioritize the closing of prior year awards with in-house grants and financial officer staff
augmented by contractor support. PRM further stated that it could not use available PMS
reports to reconcile to the 202 grants attributed to PRM in the recommendation but that
the PMS Close-Out Special Audit Report dated April 1, 2013, for the quarter ending
March 31, 2013, listed 211 subaccounts that were coded as open, of which 17
                                         17

                                UNCLASSIFIED
                               UNCLASSIFIED

subaccounts had been closed by PRM. PRM concluded that for the remaining open
grants in PMS, issues preventing closeouts varied from not having final reports to not
having NICRAs or other technical issues and that the closeouts required involvement by
multiple Department and HHS staff. PRM stated that each of the associated awards and
accounts was being worked to allow final closeout for subaccounts associated with these
awards.

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing, for the 17 grants that
PRM closed in PMS subsequent to OIG’s audit, that funds associated with those grants
were deobligated in GFMS and those grants were closed in PMS. In addition, for the
remaining grants, OIG needs to review and accept documentation showing PRM’s
ongoing efforts to review, reconcile, and close those grants accordingly.

Recommendation 6. OIG recommends that the Bureau of Population, Refugees and
Migration close the remaining 433 zero balance grants that have expired in the Payment
Management System as of March 1, 2012, to avoid unnecessary administrative fees.

PRM Response: PRM concurred with the recommendation, stating that it had adjusted
its closeout process to incorporate PMS closeout transactions as part of the formal
closeout of the award. PRM further stated that it could not use available PMS reports to
reconcile to the 433 grants attributed to PRM in the recommendation but that the PMS
Close-Out Special Audit Report dated April 1, 2013, for the quarter ending March 31,
2013, listed 248 subaccounts that were coded with the authorized, disbursed, and charged
amounts being equal. PRM concluded that of these 248 subaccounts, 235 subaccounts
were closed and 13 remained open because closing the account was not supported by the
status of the underlying assistance award.

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing that the 235 zero balance
subaccounts from the PMS Close-Out Special Audit Report cited were closed in PMS. In
addition, for the remaining 13 open grants, OIG needs to review and accept
documentation showing PRM’s ongoing efforts to review, reconcile, and close those
grants accordingly.

Recommendation 7. OIG recommends that the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, review the remaining two
expired grants from the March 1, 2012, OIG sample and (a) reconcile the approximately
$2.4 million in the Payment Management System (PMS) to the zero balances recorded in
the Global Financial Management System and (b) subsequently close those grants in
PMS to avoid unnecessary administrative fees.

A/LM/AQM Response: A/LM/AQM concurred with this recommendation, stating that
it had reconciled the remaining two grants from OIG’s sample and that both grants
reflected a zero balance in PMS and in GFMS. A/LM/AQM further stated that Grant
SLMAQM04GR038 had been closed in PMS but that Grant SLMAQM03H0048 was still
                                       18

                               UNCLASSIFIED
                                UNCLASSIFIED

being shown as “pending” in PMS. A/LM/AQM concluded that the responsible grants
officer was working with officials from the applicable bureau and HHS to correct the
problem.

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing, for the two remaining
grants from OIG’s sample, that A/LM/AQM has reconciled the remaining funds in PMS
with the remaining funds in GFMS and has appropriately deobligated associated funds
and that A/LM/AQM has closed those two grants in PMS.

Recommendation 8. OIG recommends that the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, (a) review the remaining
248 expired grants, totaling approximately $13.8 million, in the Payment Management
System (PMS) as of March 1, 2012, to determine whether the funds associated with those
grants can be deobligated in the Global Financial Management System and used for other
purposes and (b) subsequently close those grants in PMS to avoid unnecessary
administrative fees.

A/LM/AQM Response: A/LM/AQM concurred with this recommendation, stating that
it had closed “hundreds of grants” through administrative and regular closeout
procedures, would continue to prioritize closeout actions, and would review all expired
grants with the goal of deobligating and recovering as much funding as possible.

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing A/LM/AQM’s ongoing
efforts to ensure that funds associated with A/LM/AQM grants are deobligated in GFMS
and that A/LM/AQM grants are closed in PMS.

Recommendation 9. OIG recommends that the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, close the remaining 347
zero balance grants as of March 1, 2012, that have expired in the Payment Management
System to avoid unnecessary administrative fees.

A/LM/AQM Response: A/LM/AQM concurred with this recommendation, stating that
it had closed “hundreds of grants” through administrative and regular closeout procedures
and that it would continue to prioritize closeout actions in order to reduce administrative
fees in PMS.

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing A/LM/AQM’s ongoing
efforts to review, reconcile, and close zero balance grants accordingly.

Recommendation 10. OIG recommends that the Bureau of Educational and Cultural
Affairs; the Bureau of Population, Refugees and Migration; and the Bureau of
Administration, Office of Logistics Management, Office of Acquisitions Management, in
coordination with the Office of the Procurement Executive, establish specific procedures
                                        19

                                UNCLASSIFIED
                                 UNCLASSIFIED

that require grants officers and grants officer representatives to periodically report to their
respective bureau on the progress of completing timely closeout of expired grants.

Management Responses: ECA, PRM, and A/LM/AQM concurred with the
recommendation. ECA stated that it had tasked the immediate reconciliation and
closeout with the Grants and Budget Division consistent with the requirements imposed
in GPD 41. ECA further stated that it was taking proactive steps, including the use of
ECA-specific guidance, to report metrics associated with the closeout of expired and/or
inactive but open awards. PRM stated that its Office of Comptroller would implement
procedures to report, on a quarterly basis to the PRM Assistant Secretary, the status of
prior year awards, including awards closed, amounts recovered, and awards eligible for
closure. A/LM/AQM stated that it would work with the Office of the Procurement
Executive on establishing specific procedures.

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing that the three bureaus
have established specific procedures that require grants officers and GORs to periodically
report to their respective bureaus their progress in closing out expired grants in a timely
manner.

Recommendation 11. OIG recommends that the Bureau of Educational and Cultural
Affairs; the Bureau of Population, Refugees and Migration; and the Bureau of
Administration, Office of Logistics Management, Office of Acquisitions Management, in
coordination with the Office of the Procurement Executive, develop performance metrics
for bureau grants officers and grants officer representatives that will provide for timely
grant closeout of expired grants while reducing the current backlog.

Management Responses: PRM concurred with the recommendation, stating that
performance plans for personnel within its Office of Comptroller already included
closeout requirements but that these plans would be adjusted appropriately to enhance the
metrics for timely closeout. A/LM/AQM also concurred with the recommendation,
stating that it would work with A/OPE to establish performance metrics. However, ECA
did not concur with the recommendation, stating that since grant awards are “inherently
different” based on amount, budget, program, scope, purpose, length, and duration of
performance, adopting a singular performance metric for closeout would be
“administratively burdensome” and would “frustrate the process both in theory and
application.” ECA further stated that applying one standard performance-based metric
and applying this standard between the various lines of the business process “is not
feasible given the current climate of the grants management line of business.”

OIG Reply: OIG considers the recommendation unresolved because of ECA’s
nonconcurrence. OIG recognizes ECA’s concerns presented in its response but maintains
that holding grants officers and GORs accountable for the timely closeout of grants
through their performance standards would be an effective and necessary way to improve
the overall financial management of grant funds. Further, OIG would like to note that
both PRM and A/LM/AQM concurred with the recommendation and PRM had already
                                          20

                                 UNCLASSIFIED
                                              UNCLASSIFIED

        included closeout requirements in performance plans for personnel within its Office of
        Comptroller. Therefore, we request that ECA reconsider its response to the
        recommendation or provide an acceptable alternative action.

        This recommendation can be closed for PRM and A/LM/AQM when OIG reviews and
        accepts documentation showing that each bureau has developed and/or updated
        performance metrics for their respective grants officers and GORs that will provide for
        expired grants to be closed out in a timely manner while reducing the current backlog.

Finding B. Maintenance of Official Grant Files Needs Improvement

        OIG found that ECA, PRM, and A/LM/AQM grants management personnel had not
always adequately maintained official grant files and that documents required for grant closeout
were often missing, incomplete, or inaccurate. OIG also found that financial information in the
official grant files was not always consistent with the financial information recorded in PMS.
This occurred because ECA, PRM, and A/LM/AQM grants officers and other responsible
program and financial officials did not always fully execute their responsibilities during the grant
life cycle. Specifically, the grants officers did not always maintain obligating documents,
include GOR designation memorandums in the files, obtain final financial reports, or reconcile
grant funds during the grant performance period. In some instances, grants officers were not
assigned continuous responsibility for administration and monitoring of these grants. The lack of
accurate and complete documentation during a grant’s life cycle negatively affects the ability of
the Department to properly close out grants.

Documentation Required for Complete and Timely Closeout

        OIG reviewed 3728 grant files that were eligible for closeout procedures. OIG found that
only six of 37 official grant files reviewed were properly documented for grant closeout as
required by applicable policies. In addition, OIG found that the data in PMS accounts was not
always up to date and accurate. Authorizations were often inaccurate because grants officers
focused on other priorities. Therefore, the PMS system did not always reflect the current
financial status as documented in the grant files.

         On April 16, 2003, the Department issued GPD 23, “Federal Assistance File Folder –
Form DS-4012,” which requires the use of a standardized form for all Federal assistance actions,
regardless of size, scope, or cost. This requirement became mandatory for all Department grants,
cooperative agreements, and other Federal assistance actions on October 1, 2003. This GPD
states that the use of the DS-4012 form would “ensure that the required documentation
supporting the issuance and management of each assistance award is present and complete, and
provide the Department with a standardized, user-friendly system of keeping track of assistance
activities.” Required documentation included, but was not limited to, the signed Federal
agreement and any amendments; the GOR designation memorandum; and significant reports,
including financial, performance, and site visit reports. Revision 2 of this GPD, effective

28
  Only 37 of the original sample of 60 grant files could be tested for compliance with Department policies and
procedures for various reasons, which are detailed in Appendix A.
                                                        21

                                              UNCLASSIFIED
                                             UNCLASSIFIED

March 2008,29 further requires that the file folder maintain “final financial reports and documents
pertaining to the closure of the award obligation” for purposes of financial reconciliations.

        The initial issuance of GPD 41, “Close-out of Federal Assistance Awards,” effective
April 2010,30 established the procedures for closing out Federal assistance instruments. The
policy states that final financial reports should be reviewed by grants officers “to verify accuracy
and compliance with the budget and Terms and Conditions of the award.” This policy also
details the series of steps that are required for the financial review and reconciliation of funds
before closeout can occur, including reviewing amounts (authorized, disbursed, and advanced
charged) documented in PMS in order to ensure that all three amounts agree.

Documentation Required for the Federal Assistance File Folder

       OIG found that grants officers and program officials for 14 (38 percent) of 37 grants
reviewed had attempted to complete the closeout process. Nevertheless, the documents needed
to ensure a complete Federal assistance file and to properly close the grants were often missing,
were never prepared, or had not been submitted by the recipient.

       For example, OIG reviewed 36 grants that were active during or after October 2003 and
found that three grants (8 percent) did not have all obligating documents, such as amendments,
as required by GPD 23 mandated for all grants October 1, 2003. Further, OIG found that 29 (81
percent) of 36 grants reviewed did not have a GOR designation memorandum in the file, also
required by GPD 23, Revision 2, effective March 2008. According to officials at the three
bureaus included in OIG’s audit, grants officers and GORs were not always assigned continuous
responsibility for administration and monitoring of these grants, and this omission may have
contributed to the lack of complete and accurate documents in the official grant files throughout
the grant life cycle.

        OIG also found that grants officers did not always have the final financial report in the
grant files, pursuant to GPD 23, which states that the final financial reports should be maintained
in the grants file. OIG found that only eight (44 percent) of 18 grants reviewed that were active
during or after March 2008 had final financial reports in the grant files. Final financial reports
are used by grants officers to verify that the amount of Government funds expended on the
project was in accordance with the budget and terms of the award and to verify that all expenses
incurred were properly reported. An A/LM/AQM official stated that some grant recipients
whose grants had expired may no longer be associated with the Department and that they
therefore may not have been motivated to provide the bureaus with final reports.

Documentation Required for Financial Management

       OIG found that grant files did not always contain complete and accurate reconciliations,
as required by GPD 41, which was effective April 2010. Specifically, only one (14 percent) of

29
   As of February 2013, GPD 23, Revision 2, “Federal Assistance File Folder – Form DS-4012,” dated March 2008,
is the most current version of this policy.
30
   As of February 2013, GPD 41, Revision 2, “Close-Out of Federal Assistance Awards,” dated January 2, 2013, is
the most current version of this policy.
                                                      22

                                             UNCLASSIFIED
                                        UNCLASSIFIED

seven grant files reviewed that were active during or after April 2010 had a PMS print-out, an
important document for grants officers when they close out a grant serviced through PMS.
Specifically, when grants paid through PMS are closed out, special steps must be taken to
include reviewing amounts (authorized, disbursed, and advanced charged) in PMS to ensure that
all three amounts agree.

         Further, OIG occasionally found significant inconsistencies and variances between PMS
accounts and other obligating documents. Examples of significant inconsistencies and variances
between PMS accounts and supporting grant documents that OIG found in reviewing the sample
of files are as follows:

          Grant SLMAQM04GR038, which had a performance period ended March 2009, had
           PMS authorizations of $93.3 million. However, the obligating documents in the grant
           file showed an original award amount of $25.0 million, with four amendments that
           increased the total obligations to $70.8 million. The unspent balance for this grant in
           PMS was $2.2 million.

          In February 2012, an ECA official sent a grant recipient a pre-closeout memorandum
           informing the recipient that Grant SECAPV08CA011, which was valued at
           $18,895,294 and which ended in January 2009, should be closed. There was no
           drawdown information in the file to support ECA’s reconciliation, and PMS indicated
           that this grant had an unspent balance of $752,896.  

          PRM issued Grant SPRMCO09CA012 in November 2008 for $5,393,623 according
           to the obligating document. From March to September 2009, three amendments were
           issued, adjusting the total funding to $24,643,000. The fourth amendment for this
           award signed by the grants officer on February 25, 2010, deobligated $1,130,400,
           adjusting the total amount of the award to $23,512,600. However, as of March 1,
           2012, PMS still showed an authorized amount of $24,643,000, leaving more than
           $1.0 million in unauthorized funds in PMS.

Retention of Records

        From OIG’s original request to the three bureaus for 60 grant files to review, 13 grant
files (22 percent) were not available, since they either had been destroyed or could not be
located.

       Specifically, OIG found that ECA had destroyed all 10 grant files for grants that had zero
balances in PMS that OIG had selected for review. These grants had total obligations of
$46.4 million. For these grants, the end dates for the periods of performance ranged from 1991
to 1998. An ECA grants officer stated that the files for these 10 grants were destroyed primarily
because of ECA’s policy on record retention for closed awards. OIG found that the grants had
not been closed in PMS and that all 10 grants were accruing PMS service fees; however, ECA
was taking action to close the grants and limit the amount of administrative costs.


                                                23

                                        UNCLASSIFIED
                                           UNCLASSIFIED

       Of the other three missing grant files, two were A/LM/AQM grants and one was an ECA
grant. The two A/LM/AQM grants had zero balances in PMS and had expired in 2004. The
ECA grant listed an unspent balance of $936,568 in PMS and had expired in 2007.

        GPD 45, “Retention, Retrieval, and Disposal of Records,” states that Department officials
must retain “documentation supporting the obligation, certification, and disbursement of
assistance funds” for 6 years and 3 months after the final payment to the recipient. While the
periods of performance for all 13 grants had ended 5 years ago or more, all 13 grants were still
open in PMS and therefore were accruing annual PMS service fees. Applying complete closeout
procedures as described in GPD 41, to include completely closing out grants in the PMS system,
will stop the service fees for each award and ensure effective management of the Department’s
resources.

Enhanced Internal Controls for Grants Management

        OIG’s February 2012 inspection report of ECA31 recommended that the Bureau of
Administration issue guidance on how to implement the closeout requirements for grants when
the grantee fails to provide all required documents. In response, A/OPE/FA stated that grant
recipient noncompliance was not applicable only to ECA but that it affected all Department
Federal assistance programs. As a result, A/OPE/FA proposed revisions to GPD 41, including
procedures for the grants officer to take action when an award had to be closed for
noncompliance, to include the recipient not providing a final report or reconciling expenditures
under the award. Further, A/OPE/FA proposed revisions to GPD 41 for closing an award when
the recipient organization did not have its final NICRA within 24 months after the end of the
project period end date or before the cancellation of the appropriation used to fund the award,
whichever came first. These proposed revisions became effective with the issuance of the latest
version of GPD 41, Revision 2, “Close-Out of Federal Assistance Awards,” on January 2, 2013.

        While this policy update is commendable, the Department needs to continuously enhance
internal controls for grants management to ensure that transactions are properly recorded and
accounted for and that related grant laws and regulations and other compliance requirements are
followed. Closing out expired grants in a timely, efficient manner is paramount to the best use of
Department financial resources. Additionally, to close expired grants, the use of required,
standardized forms would save time and effort and would provide evidence that the grants officer
had attempted to comply with established guidance. Therefore, program bureaus issuing grants,
in cooperation with A/OPE and DCFO/FAFM, need to build on current Department-wide grant
coordination and oversight activities and ensure that there is an adequate number of well-trained
personnel to carry out grant administration within a grant’s life cycle, including the final step of
grant closeout.

           Recommendation 12. OIG recommends that the Bureau of Educational and Cultural
           Affairs; the Bureau of Population, Refugees and Migration; and the Bureau of
           Administration, Office of Logistics Management, Office of Acquisitions Management,
           each develop procedures to periodically review respective official grant files to determine

31
     ISP-I-12-15, Feb. 2012.
                                                   24

                                           UNCLASSIFIED
                                UNCLASSIFIED

bureau compliance with Grants Policy Directive (GPD) 23, Revision 2, “Federal
Assistance File Folder – Form DS-4012,” March 2008, and GPD 41, Revision 2, “Close-
Out of Federal Assistance Awards,” January 2, 2013, to ensure that timely, complete, and
accurate grant closeout procedures can be applied as required.

Management Responses: ECA, PRM, and A/LM/AQM concurred with the
recommendation. ECA stated that it had tasked its staff to perform periodic reviews to
ensure adherence to the applicable policy, and PRM stated that it would continue to
comply with GPDs as they are implemented and revised. All three bureaus specifically
mentioned how implementation of the State Assistance Management System, the
Department’s comprehensive grants management system for the full lifecycle of the
Federal assistance process, to include closeout, would ensure procedural and managerial
oversight of the official grant award file and would prohibit processing actions in the
System when the grant file was incomplete.

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation from the three bureaus showing
that each bureau has developed procedures to periodically review respective official grant
files to determine bureau compliance with GPDs 23 and 41 that will ensure that timely,
complete, and accurate grant closeout procedures can be applied as required.




                                        25

                                UNCLASSIFIED
                                      UNCLASSIFIED


                                List of Recommendations

Recommendation 1. OIG recommends that the Bureau of Educational and Cultural Affairs
review the remaining eight expired grants from the March 1, 2012, OIG sample and (a) reconcile
the approximately $9.6 million in the Payment Management System (PMS) to the approximately
$3.3 million recorded in the Global Financial Management System to appropriately deobligate
and potentially use available funds for other designated purposes and (b) subsequently close
those grants in PMS to avoid unnecessary administrative fees.

Recommendation 2. OIG recommends that the Bureau of Educational and Cultural Affairs
(a) review the remaining 393 expired grants, totaling approximately $18.8 million, in the
Payment Management System (PMS) as of March 1, 2012, to determine whether the funds
associated with those grants can be deobligated in the Global Financial Management System and
used for other purposes and (b) subsequently close those grants in PMS to avoid unnecessary
administrative fees.

Recommendation 3. OIG recommends that the Bureau of Educational and Cultural Affairs
close the remaining 359 zero balance grants that have expired in the Payment Management
System as of March 1, 2012, to avoid unnecessary administrative fees.

Recommendation 4. OIG recommends that the Bureau of Population, Refugees and Migration
review the remaining six expired grants from the March 1, 2012, OIG sample and (a) reconcile
the approximately $8.4 million in the Payment Management System (PMS) to the approximately
$6.1 million recorded in the Global Financial Management System to appropriately deobligate
and potentially use available funds for other designated purposes and (b) subsequently close
those grants in PMS to avoid unnecessary administrative fees.

Recommendation 5. OIG recommends that the Bureau of Population, Refugees and Migration
(a) review the remaining 202 expired grants, totaling approximately $8.2 million, in the Payment
Management System (PMS) as of March 1, 2012, to determine whether the funds associated with
those grants can be deobligated in the Global Financial Management System and used for other
purposes and (b) subsequently close those grants in PMS to avoid unnecessary administrative
fees.

Recommendation 6. OIG recommends that the Bureau of Population, Refugees and Migration
close the remaining 433 zero balance grants that have expired in the Payment Management
System as of March 1, 2012, to avoid unnecessary administrative fees.

Recommendation 7. OIG recommends that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, review the remaining two expired grants
from the March 1, 2012, OIG sample and (a) reconcile the approximately $2.4 million in the
Payment Management System (PMS) to the zero balances recorded in the Global Financial
Management System and (b) subsequently close those grants in PMS to avoid unnecessary
administrative fees.


                                              26

                                      UNCLASSIFIED
                                       UNCLASSIFIED

Recommendation 8. OIG recommends that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, (a) review the remaining 248 expired grants,
totaling approximately $13.8 million, in the Payment Management System (PMS) as of
March 1, 2012, to determine whether the funds associated with those grants can be deobligated
in the Global Financial Management System and used for other purposes and (b) subsequently
close those grants in PMS to avoid unnecessary administrative fees.

Recommendation 9. OIG recommends that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, close the remaining 347 zero balance grants
as of March 1, 2012, that have expired in the Payment Management System to avoid unnecessary
administrative fees.

Recommendation 10. OIG recommends that the Bureau of Educational and Cultural Affairs;
the Bureau of Population, Refugees and Migration; and the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, in coordination with the Office of
the Procurement Executive, establish specific procedures that require grants officers and grants
officer representatives to periodically report to their respective bureau on the progress of
completing timely closeout of expired grants.

Recommendation 11. OIG recommends that the Bureau of Educational and Cultural Affairs;
the Bureau of Population, Refugees and Migration; and the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, in coordination with the Office of
the Procurement Executive, develop performance metrics for bureau grants officers and grants
officer representatives that will provide for timely grant closeout of expired grants while
reducing the current backlog.

Recommendation 12. OIG recommends that the Bureau of Educational and Cultural Affairs;
the Bureau of Population, Refugees and Migration; and the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, each develop procedures to
periodically review respective official grant files to determine bureau compliance with Grants
Policy Directive (GPD) 23, Revision 2, “Federal Assistance File Folder – Form DS-4012,”
March 2008, and GPD 41, Revision 2, “Close-Out of Federal Assistance Awards,” January 2,
2013, to ensure that timely, complete, and accurate grant closeout procedures can be applied as
required.




                                               27

                                       UNCLASSIFIED
                                             UNCLASSIFIED


                                                                                                Appendix A

                                      Scope and Methodology
        The Department of State (Department), Office of Inspector General (OIG), Office of
Audits, conducted this performance audit to identify grant agreements that were more than 120
days past a grant’s period of performance end date and to determine whether any associated
funds could be put to better use. OIG also reviewed the accuracy and completeness of official
grant files, which are critical elements in achieving timely grant closeout.

        OIG conducted this performance audit from February 2012 to January 2013 in
accordance with generally accepted government auditing standards. Those standards require that
OIG plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for the findings and conclusions based on the audit objective. OIG identified data
problems, which are noted throughout this report, and took measures to mitigate them. Despite
these data problems, OIG believes that the data is sufficient to support the two salient
deficiencies identified during the audit – expired yet unclosed grants with unspent funds or zero
balances that require closeout and required documentation for grants administration and closeout
often missing from the official grant files. OIG therefore believes that the evidence obtained
provides a reasonable basis for determining these deficiencies based on the audit objective.

        To obtain background for this audit, OIG researched and reviewed Federal laws and
regulations and Department policies and procedures related to the closeout of grants and
cooperative agreements. Specifically, OIG reviewed the Code of Federal Regulations, Office of
Management and Budget (OMB) circulars,1 the Foreign Affairs Handbook, and multiple Grants
Policy Directives issued by the Department. In addition, OIG reviewed the Federal Assistance
Policy Handbook, which provides comprehensive guidance regarding all aspects of assistance for
grants officers, grants officer representatives, program officers, and financial management
officers.

        To gain an understanding of the guidance, policies, and procedures on the administration,
oversight, reporting, and closeout requirements for grant awards, OIG interviewed officials from
the Bureau of Administration, Office of the Procurement Executive (A/OPE), and the Bureau of
Administration, Office of Logistics Management, Office of Acquisitions Management
(A/LM/AQM). OIG also interviewed the grants officer in A/LM/AQM’s International Programs
Division, which provides assistance to bureaus and posts in instances where offices do not have
their own grants officers and in instances in which a planned grant award would exceed that
office’s grants officer’s warrant authority. Within A/OPE, OIG met with the Director from the
Federal Assistance Division, which establishes reporting requirements and standard policies and
procedures to comply with the governing OMB circulars and other Federal regulations. In
addition, OIG met with staff in the Bureau of the Comptroller and Global Financial Services,
Deputy Chief Financial Officer, Financial Policy, Reporting and Analysis, Office of Federal

1
 Circular A-110, Uniform Administrative Requirements for Grants and Agreements with Institutions of Higher
Education, Hospitals, and Other Non-Profit Organizations; Circular A-122, Cost Principles for Non-Profit
Organizations; and Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations.
                                                      28

                                             UNCLASSIFIED
                                             UNCLASSIFIED

Assistance Financial Management (DCFO/FAFM), which develops financial policies for grants
and cooperative agreements and is the Department’s liaison with the Department of Health and
Human Services (HHS) Payment Management System (PMS),2 which is the electronic payment
system used by most domestic/U.S.-based grant recipients.

Prior Reports

        From 2008 to 2012, the Government Accountability Office (GAO) issued two reports and
two testimonies related to grants management and the need for greater attention to address
growing unspent balances in expired grant accounts. For example, GAO reported that grant
closeout was considered a low priority, which contributed to delays in timely grant closeout, and
that staff turnover led to lapses in grant supervision and the transfer of grant-specific information
to new staff. Also, GAO reported that as more time lapsed in closing out expired grants, the
grant closure process became more difficult for responsible grant personnel.

       Based on the April 2012 GAO report Grants Management: Action Needed to Improve the
Timeliness of Grant Closeouts by Federal Agencies (GAO-12-360), OMB issued a July 2012
Controller Alert to the Chief Financial Officer (CFO) community noting the report’s potential
consequences of not closing out grants in a timely manner:

            Grant funds could be more susceptible to fraud, waste, and mismanagement;
            Potential costs in fees related to maintaining grants could increase; and
            The ability to redirect resources to other projects may be negatively impacted.

        OMB concurred with GAO that the timely closeout of grants is an area of financial
management that can be improved, stating that agencies should take appropriate action to close
out grants in a timely manner. To achieve this objective, OMB noted that the following
strategies should be considered:

            Establish strong program/CFO linkages to determine what timely closeout means for
             your programs and how to achieve it.
            Focus first on closing out expired grants that are several years past their end dates or
             have no remaining funds.
            Establish policy and procedures describing when it is appropriate for the agency to
             unilaterally closeout grants.
            Establish annual or semiannual performance targets for timely grant closeout.
            Leverage internal control procedures per OMB Circular A-123, Management’s
             Responsibility for Internal Control, to mitigate risk associated with not closing out
             grants in a timely manner.
            Monitor closeout activity and track progress in reducing closeout backlog, if any.



2
  PMS is a grants payment system operated and maintained by HHS and used by Federal agencies to provide grants
officers and grant recipients the capability to manage payment requests, edit them for accuracy and content, and
transmit payments to the Federal Reserve Bank or the U.S. Treasury for deposit into the grantee’s bank account.
                                                       29

                                             UNCLASSIFIED
                                        UNCLASSIFIED

        OIG used information from a February 2012 OIG inspection report, Inspection of the
Bureau of Educational and Cultural Affairs (ISP-I-12-15), which covered program and financial
activities for the bureau. The inspection reviewed aspects within the grant life cycle and
addressed issues relevant to this audit. Namely, recommendations were made to the Bureau of
Educational and Cultural Affairs (ECA) to develop and execute a plan to close out expired grants
that were more than 24 months past their end date.

Use of Computer-Processed Data

        OIG used computer-generated data obtained from the Department. To test the reliability
of the database, OIG also used information found in the official grant files. As noted throughout
this report, OIG found significant inconsistencies and variances between the data contained in
the database provided by the Department and documents in the official grant files. OIG used
financial documents from official grant files and attempted to identify differences with the
information found in the database listing, such as differing unspent balances between the
documents and the database, but this effort was generally unsuccessful.

       OIG’s ability to obtain a reliable database with expired grants was impacted by
questionable data, resulting in the data deficiencies detailed in this report. Specifically, the
number and amount of expired grants that had not yet been closed may be either over or
understated, and these grants may be attributed to entities other than the responsible bureaus.
OIG took steps to mitigate the data shortcomings, although deficiencies remain. Nevertheless,
OIG believed that the problems identified during this audit concerning grants management were
noteworthy to warrant the issuance of this formal report; however, OIG advises that the figures
need to be interpreted and used cautiously because of the noted data limitations.

Work Related to Internal Controls

       To assess the adequacy of internal controls related to the policies, procedures, and
processes used for closing out expired Department grants and compliance with related Federal
and Department regulations, OIG took the following actions:

          Obtained an understanding of the policies, procedures, and processes.
          Reviewed source documentation and other types of evidence to confirm the adequacy
           of controls.
          Compared PMS account balances with documentation obtained from other sources,
           including information found in the official grant files.
          Verified proper approval over PMS account transactions.

        As stated in the report, the lack of documentation supporting grants management for the
entire grant life cycle process is an internal control weakness that inhibits the timely closure of
expired grants.




                                                 30

                                        UNCLASSIFIED
                                                  UNCLASSIFIED


Detailed Sampling Methodology

        OIG’s sampling objective was to determine whether Department bureaus complied with
Department closeout policies and procedures and Federal regulations to ensure that grants are
closed after performance periods end and the Department and the U.S. Treasury are properly
reimbursed for the unused funds. This work was conducted in three bureaus: ECA; the Bureau
of Population, Refugees and Migration (PRM); and A/LM/AQM. However, this should not
preclude further efforts by other Department bureaus to ensure timely grant closeout of expired
grants.

        As indicated throughout this report, OIG frequently encountered data problems during
this audit. Primarily, OIG often found data discrepancies between PMS, the grants management
system maintained by HHS and used by Federal agencies, and the Global Financial Management
System (GFMS), the Department’s financial system used by domestic offices. Consequently,
OIG used GFMS, the official financial system, to quantify certain amounts identified from the
OIG sample, such as recommended monetary recoveries.

Identification of the Universe
        OIG requested that the Department provide a list of all expired grants as of March 1,
2012. A DCFO/FAFM official provided OIG a list on March 2, 2012, and indicated that it was
obtained from PMS. After performing preliminary work of eliminating wire transfers3 from the
database to obtain a universe (or population) of grant lines and removing any grant lines that
were not over 120 days past the grant’s expiration date to give the Department ample time to
close grants after the expiration dates, OIG encountered difficulties with the list. These
difficulties hampered OIG’s ability to identify the exact universe of expired yet unclosed grants
and the associated dollar balances of these grants.

        Specifically, OIG eventually ascertained that the Department had provided a database of
the entire Department’s inactive but open grants rather than just expired grants. There is a
significant difference between expired and inactive grants. An expired grant is a grant that has
passed its performance date and would be listed as inactive but open in the PMS database. The
provided database included active grants4 that had been deemed inactive but open for reasons
other than having reached expiration dates. For instance, OIG found that the database included
active grants that were deemed inactive but open because a no-charge grant extension had been
given by the grants officer but was not entered into the PMS system. GAO’s April 2012 report,
Grants Management: Action Needed to Improve the Timeliness of Grant Closeouts by Federal
Agencies (GAO-12-360) also found that, “PMS closeout reports may include grants that have
received an extension and are therefore not eligible for closeout.”

       OIG also found that multiple lines in the database that seemingly referred to one grant
were apparently not always treated consistently. In essence, OIG was informed that sometimes
multiple lines should be combined into one grant, while in other instances multiple lines should


3
    A wire transfer is a “same day” direct deposit used for an emergency and is not part of the grants universe.
4
    An active grant is a grant that has not reached its end of performance period.
                                                            31

                                                  UNCLASSIFIED
                                         UNCLASSIFIED

be treated as duplicates and therefore should not be added to yield one grant. OIG was not
provided a method for determining when which conclusion was appropriate.

         For example, Grant AE02CA016 appeared on two lines of the database in the amounts of
$2,845,808 and $1,969,379 for a total authorization of $4,815,187. However, Grant
SDSASD92CA001 was handled differently; it appeared on six lines, namely – the first line with
an authorized amount of $25,576,490 followed by five more lines each with the same amount of
$25,576,490. If combined, the total authorization would have been $153,458,940, but HHS staff
confirmed that the true authorization amount was $25,576,490 in this instance. The handling of
the latter grant (i.e., the elimination of the five lines that duplicated the $25,576,490 of the first
line) led OIG to erroneously conclude that if all the information in the grant line was the same,
except for the document number, then the line would be deemed a duplicate and would be
removed from the calculation of the grant total.

         Upon further review of the data, however, OIG ascertained that using this assumption in
all instances of apparently duplicate lines was unsound. For example, Grant SINLEC06CA0005
had grant lines that were all the same except for two amounts. In the order of appearance in the
database, these amounts were $500,000, $500,000, $2,625,885, $2,930,184, and $500,000, and
all these items had the same budget end date. Responding to a request from OIG to clarify the
total amount of this grant, HHS explained that the $500,000 lines for this grant were not
duplicates and that all five lines should be summed. Consequently, the total authorization for
grant SINLEC06CA0005 was $7,056,069.

        Multiple lines also exacerbated the problem of trying to differentiate between expired and
active grants. One grant line may have expired but another grant line for that same grant may
have been active, thereby causing the entire grant to be classified as active and increasing the
likelihood that an active grant may have been erroneously included with expired grants.

        Finally, OIG experienced difficulty in identifying the grant number, which can be defined
as the constant identifier of a grant. Some grants, such as SPRMCO09CA022, were easy to
identify because they had the abbreviation for the bureau issuing the grant embedded within the
number (in this case PRM). On the other hand, difficulty arose for grants where a grant number
such as SPRMCO09CA022 was not present and where the identifiers (the subaccount and
document numbers) were interspersed between the columns of the database. In such situations,
one may not be able to combine lines, resulting in the overstatement of the total number of grants
in the universe. Moreover, identifying the responsible bureau was very difficult in these older
grants because the abbreviation for the bureau was not embedded in the grant number.

        The previously discussed database problems impacted OIG’s ability to obtain a reliable
database with expired grants, resulting in the data deficiencies detailed in this report. Problems
such as the inclusion of nonexpired grants in the database, the inconsistent treatment of multiple
lines, and problems identifying the grant number clearly bring into question the adequacy of the
data. As a result of these limitations, the number of grants and unspent funds may be either over
or understated and grants may be attributed to other than the responsible bureaus. Consequently,
OIG had to proceed cautiously in using the data. Moreover, all the figures in this report are
based on a consistent methodology in an effort to mitigate the data problems to the extent
                                                  32

                                         UNCLASSIFIED
                                              UNCLASSIFIED

possible. For example, OIG only eliminated apparently duplicate lines when the amounts and
dates were exactly the same and there were no other lines on the same date for a different
amount. OIG believes that such efforts mitigated the data problems sufficiently to report
important grants management concerns identified during this audit. However, OIG advises that
because of the data limitations, the figures need to be interpreted and used cautiously.

Selection of Bureaus and Grants for Testing

        OIG selected the bureaus and the grants of these bureaus for testing via judgmental
sampling. Because this method uses discretionary criteria to effect sample selection, the audit
team was able to use information garnered during its preliminary work to aid in making informed
selections. The primary criterion used to select the bureaus was the amount of unspent funds
remaining on expired grants that had not been closed.

        Before identifying the previously enumerated problems with the database provided by the
Department, OIG sorted and tallied the various data in it to aid in selecting the bureaus and
grants in the selected bureaus for review. Additional OIG analysis concluded that the database
listed 2,376 Department grants expired over 120 days with an unspent balance of $81,934,926.
The three bureaus selected for review and the amount of unspent funds associated with each
bureau were ECA ($29,173,274); PRM ($21,549,321); and A/LM/AQM ($16,691,531). The
combined unspent balances for these three bureaus totaled $67,414,126, which represented
82 percent of the unspent balances for all of the Department’s expired grants, according to the
OIG analysis of the database provided by the Department.

        Specifically, OIG selected 10 grants with the largest amount of unspent balances5 from
each of the 3 bureaus. In addition, OIG selected the 10 oldest grants with zero balances6 for each
of the 3 bureaus.7 In total, the OIG judgmentally sampled 60 grants. OIG originally envisioned
using the sample of 60 to review both expired grants with the largest amount of unspent balances
and the oldest expired grants with zero balances as well as to test for compliance with
Department closeout and other grant policies and procedures. However, OIG encountered
problems that prevented it from using all 60 of these grants for testing.

        Using the database to sample expired grants with the largest amount of unspent balances
and the oldest expired grants with zero balances, OIG was only able to test 51 of the original
sample of 60 grants. This occurred because of data limitations encountered – specifically, that
active grants were included in the database provided by the Department. Consequently, OIG
ultimately tested 19 grants (9 grants with unspent funds and 10 with zero balances) at ECA, 20


5
  During our initial analysis, OIG treated each of the 60 sampled lines from the database as grants. However, OIG
later determined the database listed transaction lines rather than grants. Therefore, OIG combined lines with the
same grant number as previously explained to ultimately select 60 grants, which did not always result in the 10
grants with the largest amount of unspent balances being chosen for each of the three bureaus.
6
  OIG defines a zero balance grant as a grant that does not have any associated unspent funds yet has expired.
7
  For A/LM/AQM, OIG originally selected the 10 oldest grants with zero balances. However, during fieldwork,
OIG found that one of the zero balance grants contained a balance. Therefore, for A/LM/AQM, only nine zero
balance grants were tested.
                                                        33

                                              UNCLASSIFIED
                                          UNCLASSIFIED

grants (10 grants with unspent funds and 10 with zero balances) at PRM, and 12 grants (3 grants
with unspent funds and 9 with zero balances) at A/LM/AQM.

        OIG also attempted to use the entire sample of 60 grants chosen to review the grant files
of the three selected bureaus. However, OIG encountered various problems that precluded the
use of all 60 of the grants in testing. Of the 60 grants to be tested against the official grants file,
10 files were destroyed, 3 files were missing, and one grant file provided by the Department had
the wrong grant number and could not be appropriately reviewed. Therefore, only 46 grants
could be reviewed. Of those 46 grant files, only 37 of those files could be tested for compliance
with applicable Department policies and procedures in place at the time, including a check for
the presence of closeout documentation.

         Detailed information regarding the grants OIG reviewed at ECA, PRM, and A/LM/AQM
is listed in Appendices B, C, and D, respectively. OIG discussed findings at the three bureaus
with grants officers, bureau executive staff, and financial managers.




                                                  34

                                          UNCLASSIFIED
                                                UNCLASSIFIED


                                                                                                    Appendix B

       Grants Selected for Review–Bureau of Educational and Cultural Affairs

                     Table 1. Selected Grants With Unspent Balances per PMS

                                                Award                                     Disposition as of
             Grant                             Amount                      Balance        December 2012
    PYCS0341                                 $6,365,317                  $3,985,485            Open
    SECAAL-09-CA-176                                NA                          NA             Active
    SECAAE-05-CA-021                         $9,317,851                   $936,568             Open
    SECAPV-09-CA-006                         $8,557,363                   $776,719             Open
    SECAPY-08-GR-196                         $7,400,000                   $763,650             Open
    SECAPV-08-CA-017                         $5,831,044                   $760,040             Closed
    SECAPV-08-CA-011                        $18,895,294                   $752,896             Open
    SECAPV-10-CA-016                        $23,598,378                  $1,053,748            Open
    SECAPY-07-GR-152                         $7,182,200                   $681,459             Open
    SECAAS-07-CA-039                        $11,049,823                   $641,576             Open
                                                                        $10,352,141

    Source: OIG analysis of PMS account data as of March 1, 2012, plus 120-day closure period, and ECA official
    grant files and responses.




                    Table 2. Selected Grants Without Unspent Balances per PMS

                                                Award                                     Disposition as of
            Grant                              Amount                      Balance        December 2012
    G1190036                                $24,655,366                          $0            Closed
    G0190036                                 $3,887,390                          $0     Cannot be determined
    G4190014                                $13,415,096                          $0            Closed
    G5190011                                 $1,772,950                          $0            Open
    G5190511                                    $63,243                          $0            Closed
    G6190004                                 $1,359,092                          $0            Closed
    G5190304                                  $324,527                           $0            Closed
    G5190189                                  $417,375                           $0     Cannot be determined
    G7190060                                  $465,492                           $0            Closed
    G4190565                                    $42,555                          $0     Cannot be determined
                                                                                 $0
 
Source: OIG analysis of PMS account data as of March 1, 2012, plus 120-day closure period, and ECA official
grant files and responses.




                                                          35

                                                UNCLASSIFIED
                                                UNCLASSIFIED


                                                                                                   Appendix C

     Grants Selected for Review–Bureau of Population, Refugees and Migration

                     Table 1. Selected Grants With Unspent Balances per PMS

                                              Award                                        Disposition as of
             Grant                            Amount                      Balance          December 2012
    SPRMCO-09-CA-018                        $10,040,650                 $3,083,124             Closed
    SPRMCO-10-CA-040                        $31,615,620                 $2,242,029             Open
    SPRMCO-09-CA-012                        $24,643,000                 $1,580,485             Open
    SPRMCO-08-CA-008                        $18,041,400                 $1,443,786             Open
    SPRMCO-10-CA-018                        $12,701,511                 $1,147,779             Open
    SPRMCO-09-CA-022                         $7,950,138                 $1,138,686             Open
    SPRMCO-10-CA-020                         $4,096,379                  $905,882              Closed
    SPRMCO-09-CA-017                         $9,395,568                  $807,308              Open
    SPRMCO-08-CA-016                         $6,497,402                  $576,781              Closed
    SPRMCO-09-CA-011                         $8,398,050                  $436,865              Closed
                                                                       $13,362,725

    Source: OIG analysis of PMS account data as of March 1, 2012, plus 120-day closure period, and PRM official
    grant files and responses.




                   Table 2. Selected Grants Without Unspent Balances per PMS

                                             Award                                       Disposition as of
             Grant                           Amount                       Balance        December 2012
    SPRMCO-03-CA-045                         $1,194,534                          $0            Closed
    SPRMCO-03-CA-101                          $238,597                           $0            Open
    SPRMCO-03-CA-041                          $999,791                           $0            Closed
    SPRMCO-03-CA-047                          $826,579                           $0            Open
    SPRMCO-03-CA-048                            $15,162                          $0            Open
    SPRMCO-03-CA-113                            $63,115                          $0            Open
    SPRMCO-03-CA-050                          $593,874                           $0            Open
    SPRMCO-03-CA-049                          $998,860                           $0            Open
    SPRMCO-03-CA-052                          $300,195                           $0            Closed
    SPRMCO-03-CA-058                          $797,361                           $0            Open
                                                                                 $0

Source: OIG analysis of PMS account data as of March 1, 2012, plus 120-day closure period, and PRM official
grant files and responses.
                                      




                                                          36

                                                UNCLASSIFIED
                                           UNCLASSIFIED


                                                                                             Appendix D

         Grants Selected for Review–Bureau of Administration, Office of
           Logistics Management, Office of Acquisitions Management

                   Table 1. Selected Grants With Unspent Balances per PMS

                                            Award                                     Disposition as of
          Grant                            Amount                      Balance         December 2012
 SLMAQM-10-GR-501                                NA                         NA             Active
 SLMAQM-08-GR-071                                NA                         NA             Active
 SLMAQM-07-GR-206                                NA                         NA             Active
 SLMAQM-09-CA-005                                NA                         NA             Active
 SLMAQM-04-GR-038                        $93,000,000                 $2,226,594            Open
 SLMAQM-10-GR-020                                NA                         NA             Active
 SLMAQM-08-GR-568                                NA                         NA             Active
 SLMAQM-08-GR-144                                NA                         NA             Active
 SLMAQM-05-GR-074                                NA                         NA             Open
 SLMAQM-06-GR-045                          $891,807                   $416,772             Closed
 SLMAQM-03-H-0048                          $500,000                   $217,626             Open
                                                                     $2,860,992

 Source: OIG analysis of PMS account data as of March 1, 2012, plus 120-day closure period, and A/LM/AQM
 official grant files and responses.




                  Table 2. Selected Grants Without Unspent Balances per PMS

                                           Award                                      Disposition as of
          Grant                            Amount                      Balance        December 2012
 SLMAQM-03-H-0006                          $200,000                          $0            Closed
 SLMAQM-03-H-0012                         $1,000,000                         $0            Closed
 SLMAQM-03-H-0209                            $30,000                         $0            Closed
 SLMAQM-03-H-0009                          $297,000                          $0            Closed
 SLMAQM-03-H-0040                            $64,975                         $0            Open
 SLMAQM-03-H-0041                          $139,879                          $0            Open
 SLMAQM-03-H-0014                          $300,000                          $0            Closed
 SLMAQM-03-H-0079                          $100,000                          $0            Closed
 SLMAQM-03-H-0070                          $310,000                          $0            Closed
                                                                             $0

Source: OIG analysis of PMS account data as of March 1, 2012, plus 120-day closure period, and A/LM/AQM
official grant files and responses.




                                                    37

                                           UNCLASSIFIED
                                     UNCLASSIFIED


                                                                                                    Appendix E


                                                     United States Department of State
                                                     Bureau of Educational and Culhtral Affairs
                                                     Washington, D.C. 20547
                                                     www.slate.gov


                                                     May 31.2013


MEMORANDUM


TO:           OIG -Harold W. Geisel

FROM:          ECA- Ann Stock P\.~.

SUBJECT:       ECA response to Draft Report on Audit of Grcmt Closeout Processes for SeleNed
               Depanmem of State Bureaus.

REF:           Recommendations 1-3; I 0-12


Thank you for your leuer of May 6. 2013 in which the above-referenced draft report was
submitted for review and comment. The following constitutes the responses requ ested of the
Bureau of Educational and Culn1ral Affairs (ECA) to your recommendations. and an update on
the current status of ECA action on this audit.

Preface: The scope of this audit was a sample set of ECA financial assistance awards (Grants
and/or Cooperative Agreements) which were classified as either expired or inactive but remain
open in the Health and Human Services Payment Management System (PMS). Such 'open'
status result in both unliquidated obligations (ULOs) as well as the assessment of monthly
maintenance commissions (hereinafter referred to as administrative fees) assessed to the Bureau
of Educational and Cultural Affairs.

Resoonse Summary: Due to the various complexities associated with closure of these awards,
which range from lack of receipt of final reporting to fai lure of responses from grantees. to
changes of ECA grams and program office staff (minimal continuity wi thin the process) and
lastly. Jack of final Negotiated Indirect Cost Rate Agreements (NlCRA), meeting the applicable
DoS policy on grams closeout is, at times, uniquely challenging. This is made evermore difficult
in cases where time has elapsed between expiration of the award performance period and
initiation of closeout procedures. To this end, while the Bureau has made substantial progress on
grant closeouts - closing in excess of 400 grant awards in calendar year 2012 alone - we
understand the importance and critical compliance requirement of timely closeou t of grant
awards. The closure of awards has also resu lted in a savings in excess of six million dollars in
liquidated obligations and reduction of administrative fees to maintain open awards in PMS.

The Bureau of Educational and Cultural Affairs has taken active steps to prioritize timely
closeout of awards within is 24 months after grant performance. These remedial actions include
tasking specified personnel with the project of closing out expired awards as a core component
of their respon sibility and reporting closeou t metrics on a monthly basis to ECA management.
Also. this team serves as the primary interface between ECA Grants and ECA Budget offices to
facilitate the timely processing of the '059' closeout action in PMS and associated deobligation




                                                38

                                     UNCLASSIFIED
                                    UNCLASSIFIED




processes. While ECA continues to make steady progress we are appreciably aware of the work
that yet remains. We are c01mnitted to making timely grant close outs a priority.

Recommendation 1: OIG recommends that the Bureau of Educational and Cultural Affairs
review the remaining e ight expired grants from the March 1, 2012, OIG sample and (a) reconcile
the approximately $9.6 million in the Payment Management System (PMS) to the approximately
$3.3 million recorded in the Global Financial Management System to appropriately deobligate
and potentially use available funds for other designated purposes and (b) subsequently close
those grants in PMS to avoid unnecessary administrative fees.

ECA Response: ECA agrees with this reconunendation 1md has tasked the immediate
reconciliation and closeout with the Grants and Budget Division consistent with the requirements
imposed in Grants Policy Directive (GPD) 41. Additional steps have been taken within ECA-
IIP/ EX/G to reduce the total number of out')tanding awards by first perfom1ing final
reconciliations, matching GFMS with PMS and with financial reports, and moving these to fmal
deobligation (059 action). Please see response summary and addenda #1 (OIG Research -
Reisig) for details of additional mitigation efforts.

Recommendation 2: O lG recommends that the Bureau of Educational and Cultural Affairs (a)
review the remaining 393 expired grants totaling approximate ly $18.8 million in the Payment
Management System (PMS) as ofMarch 1, 2012, to detennine whether the funds associated with
those grants can be deobligated in the Global Financial Management System and used for other
purposes and (b) subsequentl y close those grants in PMS to avoid unnecessary administrative
fees.

ECA Response: ECA agrees with this reconuuendation and has tasked the immediate
reconciliation and closeout with the Grants and Budget Division consistent with the requirements
imposed in Grants Policy Directive (GPD) 41. Further, such steps in mitigation and reduction of
this reported number (393) has been don e throughout the 2012 year. '111lls, the total number of
grants which are either expired and/or inactive has been reduced by more than 170 subsequent to
this OIG aud it.

Reconunend ation 3: OIG recommends that the Bureau of Educational and Cultural Affairs
close the remaining 359 zero balance grants that have expired in the Payment Management
System as of March 1, 2012, to avoid mmecessary administrative fees.

ECA Response: ECA agrees with this recommendation and has tasked the immediate
reconciliation and closeout wiU1 the Grants and Budget Division cons istent w iU1 the requirements
imposed in Grants Policy Directive (GPD) 41.

Rccommcnd ation lO: OIG recommends that the Bureau of Educational and Cultural Affairs;
the Bureau of Population, Refugees and Migration; and the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, in coordination with the Office of
the Procurement Executive, establish specific procedures that require grants officers and grants
officer representatives to periodically report to their respective bureau on U1e progress of
completing timely closeout of expired grants.



                                                2




                                               39

                                    UNCLASSIFIED
                                     UNCLASSIFIED




ECA Response: ECA agrees with this recommendation and has tasked the immediate
reconciliation and closeout with the Grants and Budget Division consistent with the requirements
imposed in Grants Policy Directive (GPD) 41. Furthermore, ECA is taking proactive steps,
including the use of ECA specific guidance including the ECA grants closeout checklist and
reporting matrix to report metrics associated with the closeout of expired and/or inactive but
open awards. Additional steps have been taken, including dedicated personnel to monitor and
track the closeout action between EX/G (Grants) and EX/BF (Budget and Finance) for the
purpose of providing communication and feedback looping and maintaining awareness of
progress/process status.

Recommendation 11: OIG recommends that the Bureau of Educational and Cultural Affairs;
the Bureau of Population, Refugees and Migration; and the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, in coordination with the Office of
the Procurement Executive, establish performance metrics for bureau grants officers and grants
officer representatives that will provide for timely grant closeout of expired grants while
reducing the current backlog.

ECA Response: ECA does not agree with this recommendation insofar as the development of
performance-based metrics is difficult given the complexities and variables from one award to
another. Since grant awards are inherently different based on amount, budget, program, scope,
purpose, length and duration of performance, cooperation of program office and grant recipient
(including sub-recipients), etc., to adapt a singular performance metric for closeout would be
administratively burdensome and would frustrate the process both in theory and application.
While some variables can be assumed at the onset of awards, as awards 'age' other unforeseen
circumstances arise which create uncertainty and lack of uniformity in how closeouts are to occur
and what kinds of resources are required to complete them. Simply put, some grants (and
associated grant recipients) are able to be closed without issue while others require weeks of
work to perform final request for production of documentation, final reconciliation and DoS
deobligation processes. Therefore, applying one standard performance-based metric and
applying this standard between the various lines of the business process is not feasible given the
current climate of the grants management line of business.

Recommendation 10: OIG recommends that the Bureau of Educational and Cultural Affairs;
the Bureau of Population, Refugees and Migration; and the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, each develop procedures to
periodically review respective official grant files to determine bureau compliance with Grants
Policy Directive (GPD) 23, Revision 2, "Federal Assistance File Folder- Form DS-4012,"
March 2008, and GPD 41, Revision 2, "Close-Out of Federal Assistance Awards," January 2,
2013, to ensure that timely, complete, and accurate grant closeout procedures can be applied as
required.

ECA Response: ECA agrees with this recommendation and has tasked staff with performing
periodic reviews to ensure the adherence to above-stated policy. Furthermore, there are key
periods where the official grant file is subject to routine review. Such instances include grant
modifications, Federal Financial Report (FFR) (SF-425) review, inclusion of the Program
Performance Report (PPR) into the file, amendments, and finally, preparation of the file for
closeout. Such grant files will be reviewed in accordance with GPD 23 and immediate steps will
be taken to complete any deficiencies to the file. It should be noted that this requirement will be
                                                 3




                                                40

                                     UNCLASSIFIED
                                         UNCLASSIFIED




met upon full and final integration of GrantSolutions (SAMS) into the Bureau of Educational and
Cultural Affairs. As SAMS systems will be integrated into ECA June 1, 2013 and will be the
system of record, to include procedural and managerial oversight of the official grant award file
and hard-stop system requirements will prohibit the grant file from processing actions when
incomplete. Therefore, this recommendation will resolve as the bureau moves to SAMS only
grant award administration.


If you have any questions or would like additional information, please contact [Redacted] (b) (6) at 202-
     [Redacted] (b) (2)
632-          .

Approved:       Assistant Secretary Ann Stock
                                   [Redacted] (b) (6)    [Redacted] (b) (2)
Drafted:        ECA-IIP/EX/G-                      X2-               5/2112013 (OK)

Clearance:      ECAIFO (Ruth, Rick) ok
                ECA-IIP/EX/BF (Robinson) ok
                ECA-IIP/EX (Jones, Cantor) ok




                                                                4




                                                             41

                                         UNCLASSIFIED
                                     UNCLASSIFIED


                                                                                                     Appendix F



                                                             United States Department of State

                                                            Rureau of Population, Refugees,
                                                            and Migrati{)n

                                                            Washington, D.C. 20.520
                                                            May 31,2013

UNCLASSIFIED
MEMORANDUM

TO:            OTG/AUD- Evelyn Klemstine

FROM:          PRM - Kelly T. Clements     ~
SUBJECT:       Draft Report on Audit of Grant Closeout Processes for Selected Department of
               State Bureaus

Thank you for the opportunity to provide comments on the subject draft audit report. The report
highlights aspects of the Federal assistance process that present challenges to the Department's
grant making bureaus and also references the changes that the Department, including PRM, has
implemented over a period of years to improve the management and performance of the grant
closeout process. We hope that our comments will also help to provide a context for the audit
findings as well as serve to docwnent our continued commitment to meeting this important
imperative of Federal assistance management.

As the audit team is aware, PRM has implemented processes and dedicated resources to improve
the grant closeout performance. Since 2008, PRM has engaged the services of a public
accounting firm to work with our grants and financial management team. Working together, this
team has closed out more than 500 grants and recovered more than $49 million that has then
been reapplied to PRM's humanitarian assistance programs since 2008. During this same period,
the amount ofFederal assistance that PRM has managed has increased from $1.1 billion in FY
2007 to $ 1.9 billion in FY 2012 with corresponding workload increases for these same grants
and financial officers including increases in the nwnbers of assistance awards, amendments,
payment actions, and grantees managed.

The Department and PRM have long recognized the complexity of and the impediments to grant
closeouts and have worked to streamline procedures while still meeting regulatory requirements
and adhering to the terms and conditions that were in place at the time of each assistance award.
We have concentrated our closeout improvement efforts on ensuring the timely submission and
evaluation of final reports (including the receipt of final Negotiated Indirect Cost Rate
Agreements (NICRAs)); fmancial reconciliation between grant, financial and payment systems;
and validating the grantee's final audit results and incorporating them into the closeout actions.
However, we still have a number of issues that can delay individual grant closeouts including
receiving timely NICRAs for our grantees from other cognizant Federal agencies, reconciling
grant amounts between financial and payment management systems that have evolved or been
replaced during the period of the life of a grant, and the flood of available grant closeout
opportunities from recent systems and process improvements by the Department (e.g., the
Department's reduction in its own NlCRA backlog).




                                                42

                                     UNCLASSIFIED
                                   UNCLASSIFIED




                                      UNCLASSIFIED
                                             -2-


We have addressed each of the specific audit recommendations in the attachment to this letter.
PRM remains committed to the award closeout process including closing out expired assistance
awards, closing out applicable Payment Management System accounts, reporting to management
on PRM's grant closeout status, and holding grants officers and managers accountable for grant
closeout performance.

Attachment:

       I.   PRM Specific Recommendations and Responses.




                                      UNCLASSIFIED




                                             43

                                   UNCLASSIFIED
                                    UNCLASSIFIED




                                       UNCLASSIFIED
                                               -3-

 Response to the Report, Audit of Grant Closeout Processes for Selected Department of State
                                         Bureaus

                       PRM Specific Recommendations and Responses

Recommendation 4. OIG recommends that the Bureau of Population, Refugees and Migration
review the remaining six expired grants from the March I, 2012, OIG sample and (a) reconcile
the approximately $8.4 million in the Payment Management System (PMS) to the approximately
$6.1 million recorded in the Global Financial Management System to appropriately deobligate
and potentially use available funds for other designated purposes and (b) subsequently close
those grants in PMS to avoid unnecessary administrative fees.

PRM Response: Concur. PRM has reconciled the PMS record to the GFMS record for the
award in question and made the appropriate adjustment so that PMS records now conform with
the GFMS records. In accordance with PRM closeout procedures and each award's terms and
conditions, PRM continues to prioritize the closeout of these and other prior year awards. For
the I 0 awards listed in Table 3, five awards have had final closeout amendments issued and
accepted. For the remaining five awards, three awards involve one organization that is working
with PRM to submit final financial reports based on final audits. These awards will be closed
out upon receipt of final financial reports. The remaining two awards involve one organization
that must submit additional information to the National Business Center in order to receive the
applicable final NICRAs that will enable the organization to submit its final financial reports.
These awards will be closed upon receipt of the final financial reports. For each of these five
remaining awards, PRM either has received or anticipates receiving refunds based on the final
audits and final reports. Maintaining the open PMS accounts associated with these awards is a
useful tool and reminder to both the grantee and PRM that closeout work remains to be
accomplished. PRM already takes into account estimates for recoveries from prior year awards
when developing annual budget and financial plan estimates for the refugee admissions program
that these awards serve.

Recommendation 5. OIG recommends that the Bureau of Population, Refugees and Migration
(a) review the remaining 202 expired grants totaling approximately $8.2 million in the Payment
Management System (PMS) as of March I, 2012, to determine whether the funds associated with
those grants can be deobligated in the Global Financial Management System and used for other
purposes and (b) subsequently close those grants in PMS to avoid unnecessary administrative
fees.

PRl\1: Response: Concur. PPJ.v1 continues to put priority on closing out prior year a\vards
including through the use of contractor support to augment our in-house grants and financial
officer staff. PRM appreciates that the audit report states that the number and amount of expired
grants that had not yet been closed may be over or understated. PRM could not use the PMS
reports that are available to PRM to tie to the exact numbers attributed to PRM in the report.
This may be because the static numbers generated quarterly by PMS do not reflect the dynamic
nature of the grants processes where grant accounts are continually being adjusted by grantees
and PRM staff working the accounts. We can state that the PMS Close-Out Special Audit Report
(COSAR) dated April!, 2013 for the quarter ending March 31, 2013 listed 211 sub accounts that
were coded as open. Of those, 17 have since been closed. For the remaining, each of the

                                       UNCLASSIFIED




                                              44

                                    UNCLASSIFIED
                                    UNCLASSIFIED




                                        UNCLASSIFIED
                                            -4-

associated awards and accounts are being worked to allow final closeout for subaccounts
associated with these awards. The issues preventing closeouts can vary from not having final
reports to not having final NICRAs to systems and other technical issues and can require
involvement by grants officer, financial officer, HHS PMS staff, grantee staff and management,
and accounting system staff.

Recommendation 6. OIG recommends that the Bureau of Population, Refugees and Migration
close the remaining 433 zero balance grants that have expired in the Payment Management
System as of March 1, 2012, to avoid unnecessary administrative fees

PRM Response: Concur. PRM has adjusted its closeout process to incorporate the PMS
closeout transaction as part of the formal closeout of the award. PRM appreciates that the audit
report states that the number and amount of expired grants that had not yet been closed may be
over or understated. PRM could not use the PMS reports that are available to PRM to tie to the
exact numbers attributed to PRM in the report. This may be because the static numbers
generated quarterly by PMS do not reflect the dynamic nature of the grants processes where
grant accounts are continually being adjusted by grantees and PRM staff working the accounts.
We can state that the PMS Close-Out Special Audit Report (COSAR) dated April!, 2013 for the
quarter ending March 31, 2013 listed 248 subaccounts that were coded with the Authorized,
Disbursed, and Charged amounts being equal. Of these 248 subaccounts, 235 subaccounts have
been closed and 13 remain open because closing the account is not supported by the status of the
underlying assistance award.

Recommendation 10. OIG recommends that the Bureau of Educational and Cultural Affairs; the
Bureau of Population, Refugees and Migration; and the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, in coordination with the Office of
the Procurement Executive, establish specific procedures that require grants officers and grants
officer representatives to periodically report to their respective bureau on the progress of
completing timely closeout of expired grants.

PRM Response: Concur. PRM's Office of Comptroller will implement procedures to report
quarterly to the Assistant Secretary the status of prior year awards including awards closed,
amounts recovered, and awards eligible for closure that remain to be closed.

Recommendation 11. OIG recommends that the Bureau of Educational and Cultural Affairs; the
Bureau of Population, Refugees and Migration; and the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, in coordination with the Office of
the Procuren1ent Executive, develop perforn1a11ce n1etrics for bureau grants officers and grants
officer representatives that will provide for timely grant closeout of expired grants while
reducing the current backlog..

PRM Response: Concur. PRM Office of Comptroller personnel performance plans include
closeout requirements. These plans will be adjusted appropriately to enhance the metrics for
timely grant closeout.




                                        UNCLASSIFIED




                                               45

                                    UNCLASSIFIED
                                   UNCLASSIFIED




                                      UNCLASSIFIED
                                          -5-

Recommendation 12. OIG recommends that the Bureau of Educational aud Cultural Affairs; the
Bureau of Population, Refugees and Migration; aud the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, each develop procedures to
periodically review respective official grant files to determine bureau compliance with Grauts
Policy Directive (GPD) 23, Revision 2, "Federal Assistance File Folder- Form DS-4012,"
March 2008, and GPD 41, Revision 2, "Close-Out of Federal Assistance A wards," Jauuary 2,
2013, to ensure that timely, complete, aud accurate grant closeout procedures can be applied as
required.

PRM Response: Concur. PRM will continue to comply with Grauts Policy Directives as they
are implemented and revised. PRM also looks forward to the Department's full implementation
of the GrantSolutions system so that maudated grant file documentation requirements aud tools
are incorporated within the GrantSolutions functionality.




                                      UNCLASSIFIED




                                             46

                                   UNCLASSIFIED
                                     UNCLASSIFIED


                                                                                                 Appendix G




                                                        United States De partme nt of State
                                                        Washington. D. C. 20520

                                                        May 29.2013

UNCLASSIFIED
MEMORANDUM

TO:           010/AUD - Evelyn Klemstine

FROM:          NLM - Catherine I. Ebert-GrayV \

SUBJECT:      NLM/AQM response to Draft Report on Audit ofGrant Closeout Processes for
              Selected Department ofState Bureaus.

        Thank you for the opportunity to address the draft audit report of Grant Closeout
Processes for Selected Department of State Bureaus. [Redacted] (b) (6) is the point of contact
                                                     [Redacted] (b) (2)
on this response and he can be reached at (703) 875-

        As you are aware. over the past two years the Office of Acquisitions Management
(AQM) has closed hundreds of grants through administrative and regular closeout procedures to
address the back log of grants not closed within 120 days. AQM provides cradle to grave grant
management services for 16 bureaus. In 2011. AQM began a weekly process (every Wednesday
in October thru June) where the Grants Branch performs only closeout duties. There are many
challenges/issues that AQM Grants Officers (GO) face when closing out grants. For example.
over the past several years there bas been a turnover of GOs in AQM. AQM currently has fi ve
GOs that. in addition to closing out grants, are responsible for providing daily grants
management service which includes pre-award, award and post-award activities, all of which are
extremely demanding of the GO's time. On average, AQM GOs processes/issues 200 new
grants and amends 500 grants annually. Additionally, each GO has approximately 200-250 open
grants to monitor, manage and administer in their portfolio.

        The closeout process of a grant is extremely complex and a good understanding has to be
had for a clear and succinct assessment and evaluation of the closeout process. It is important to
note that the funds do not belong to AQM, the bureaus obligate the funds. Therefore, the GO
must work closely with each bureau Program Officer (PO)/Grants Officer Representative (GOR)
and Budget Officer (BO) to de-obligate funds, and obtain fmal documents, which include:
program evaluations, the SF-425 financial report, the Negotiated Indirect Cost Rate Agreement
(NICRA) and then the bureau process a 059 in the Payment Management System (PMS) to close
the sub-account. Attachment I contains examples of some of the challenges/issues that AQM
GOs face during the closeout of a grant.

       As highlighted above, AQM GOs make closing out grants a priority. Now that grants are
processed in the department's automated grants management system State Assistance
Management System (SAMS). AQM GOs will be able to utilize enhanced tools to assist in
performing grants closeout duties in a timely manner.

                                      UNCLASSIFIED




                                                47

                                     UNCLASSIFIED
                                      UNCLASSIFIED



                                         UNCLASSIF IED



       Below you will find /\Q M' s specific responses to the recommendations.

Recommendation 7: O IG reco mmends that the Bureau of Administration. O ffice of Logistics
Management, O ffice of Acquisit io ns Management review the remaini ng two expired grants from
the March I, 20 12, OIG sample and (a) reconcile the approximately $2.4 million in the Payment
Management System (PMS) to the zero balances recorded in the Glo ba l Financial Management
System and (b) subsequently c lose those grants in PMS to avoid unnecessary administrative fees.

A/LM/AQM Response: The Office of Acquisitions Management agrees with thi s
recommendation. AQM has reconciled the above two grants. Cu rrently, both grants re flect a
zero balance in PMS and GFMS. In addition, grant SLMAQM04GR038 was not expired when
the a udit was be ing conducted; however, expired during the course of the audit. AQM notes that
this grant has been closed. During the reconc iliation process, AQM has d iscovered a problem in
PMS concerning grant SLM AQM 03 H0048. Even though all three columns match and the 059 is
entered. the current status sti ll shows as a " Pending" . The responsible AQM GO is working with
the bureau and PMS to correct the problem.

Recommendation 8: OI G recommends that the Bureau of Admini stration, O ffice of
Logistics Management Offi ce o f Acquisitions Management (a) review the remaining 248
expired grants totaling approx imately $13.8 million in the Payment Management System
( PMS) as of March I. 20 12, to determine whether the funds associated with those grants
can be deobligatcd in the Global Financial Management System and used for other
purposes and (b) subsequently close those grants in PMS to avoid unnecessary
administrative fees.

A/LM/ AQ M Response: The Office of Acquisitions Management agrees with this
recommendation. AQM has closed hundreds o f grants through administrative and regular
closeout procedures and wi ll continue to prioritize closeout actions and will review a ll expired
grants with the goal of de-obligati ng and recovering as much funding as possi ble.

Recommendation 9: O IG reco mmends that the Bureau of Administration. OfTtce of
Logistics Management. Office o f Acquisitions Management, close the remaining 347
zero balance grants as o f March I. 201 2. that have expired in the Payment Management
System to avoid unnecessary admi nistrative fees.

A/LM/AQM Response: The Office of Acquisitio ns Management agrees with thi s
recommendatio n. AQM closed hundreds o f grants through administrative and regular closeout
procedures and will continue to prio ritize closeo ut actions in order to reduce administrative fees
in PMS.

Recommendation 10: OIG recommends that the Bureau of Educational and Cultural Affa irs;
the Bureau of Populatio n, Refugees and Migration; and the Bureau o f Admini stration, Oftice of
Logistics Management Offi ce o f Acquisitions Management, in coordination with the Ollice of
the Procurement Executi ve, establish specific procedures that require grants officers and grants




                                         UNC LASS IFIED




                                                 48

                                      UNCLASSIFIED
                                      UNCLASSIFIED



                                         UNCLASS IFI ED


oflicer representatives to periodically report to their respective bureau on the progress of
completing timely closeout of exp ired grants.

A/LM/AQM Response: AQM agrees with this recommendation, will work with the Office or
Procurement Executive (A/OPE) on establishing specific procedures.

Recommendation 11: OIG recommends that the Bureau of Educat ional and C ultural Affairs;
the Bureau of Population. Refugees and Migration; and the Bureau of Admini stration, Office of
Logistics Management, Office of Acquisitions Management, in coordination with the Office or
the Procurement Executive, establish performance metrics for bureau grants officers and grants
officer representatives that will provide for timely grant closeout of expired grants while
reducing the current backlog.

A/ LM/AQM Response: AQM agrees with this recommendation and will work with the Oflice
or Procurement Executive (A/OPE) to establi sh perfom1ance metrics.

Recommendation 12: OIG recommends that the Bureau of Educational and Cultural Affairs; the
Bureau of Population, Refugees and Migration; and the Bureau or Adm inistration. Office of
Logistics Management, Office of Acquisitions Management, each develop procedures to
periodically review respective official grant files to determine bureau compliance with Grants
Policy Directive (GPO) 23, Revision 2, '·Federal Assistance File Folder - Form DS-40 12,"
March 2008, and GPO 41, Revision 2, "Close-Out of federal Assistance Awards," January 2.
2013. to ensure that timely. complete, and accurate grant closeout procedures can be applied as
required.

AILM/AQM Response: AQM agrees with this recommendation. SAMS is the Department's
system or record. By using SAMS, there wi ll be procedural and managerial oversight of' the
otlicial grant award fi le and system requirements will prohibit the grant file from processing
actions when incomplete..




Attachments:
As stated.




                                         UNCLASSi fi ED




                                                 49

                                      UNCLASSIFIED
                                 UNCLASSIFIED


                                                                                     Appendix H




                                                     United States Department of State
                                                     Comptroller
                                                     P.O. Box 150008
                                                     Charleston, SC 2941 5-5008


UNCLASSIFIED
                                                     JUN 0 3 2013

MEMORANDUM

TO:           OIG - Harold W. Geisel

FROM:        CGFS- James L.    Millet~
SUBJECT: Draft Repor1 on Audit of Grant Closeout Processes for Selected
         Department of State Bureaus (AUD-CG-13-XX, May 2013)

The Bureau of the Comptroller and Global Financial Services (CGFS) Office of
Federal Ass istance F inancial Management (F AFM) has reviewed the subject draft
repor1 and we concur and support the recommendations in the report. While there
are no specific recommendations for CGFS, we are providing the following
comments with the hope that our comments will help to present a context for the
findings. They also serve to document our past and continued commitment to
meeting this critical aspect of managing Depar1ment of State's (Depar1ment)
federa l assistance management. We appreciate the oppor1unity to provide
comments on the draft rep011.

In 2008, the Management Controls Steering Committee (MCSC), with OIG
concurTence, closed the Significant Deficiency on the Depar1ment' s management
of federal financial assistance, which had been establ ished in 2005. By taking this
action, the MCSC acknowledged the significant progress made in three of the four
areas identified in the Corrective Action Plan (CAP): Leadership, Policy
Framework, and Train ing and Outreach. The management ofunliquidated
obligations (lJLOs) and closeout of federal assistance awards was pa11 of these
effor1s and continues to be one of our top priorities. The attached presentation
(see Attachment 1), which was provided to your staff in the entrance conference
a long with supporting documentation, reflects the CGFS bureau's on-going
outreach and programmatic efforts, both formal and informa l, to raise awareness of
the grant closeout process across the Department. Our concerted efforts, supports
our strong belief that the grant closeout is an impor1ant and critical final part of the
grant life cycle and grant accountability and allows the Depar1ment to identify and


                                    UNCLASSIFIED




                                          50

                                 UNCLASSIFIED
                                UNCLASSIFIED



                                  UNCLASSIFIED
                                      -2-

redirect any unused funds to other projects or return funds to the Treasury. As a
result of these efforts, thousands of items totaling over $54 million have been
deobligated to date.

The Department has a large, complex and diversified grants portfolio across many
bureaus. In FY 2012, the Department disbursed over $8.78 million in federal
assistance payments, with the majority being made domestically. Most of our
domestic grant payments are processed in the Department of Health and Human
Service's Payment

Management System (HHS/PMS) which interfaces with the Department's Global
Financial Management Systems (GFMS). The Department installed these
interfaces to ensure the timely and consistent update of grant related financial
information to facilitate their management, and the combination of these two
systems provides complementary functionality necessary for grant and financial
management accountability. Despite these improvements, the inherent nature and
regulatory requirements surrounding grants management renders the grants
closeout process subject to substantial labor hours to research, analyze,
communicate and reconcile each of the required elements of the closeout process.

The Department's federal financial assistance funding (See Figure 1 of your report)
has grown over the last few years, with little or no increase in staffing in the
bureaus to manage these grants. Regardless, the Department has still made
substantial improvements in grants management and closeouts across the bureaus.
The Department wi ll continue its efforts to put emphasis on closeouts and on
improving the internal controls in GFMS and PMS for the closeout process.

The PMS produces a Close-Out Special Audit Report (COSAR) on a quarterly
basis. The COSAR provides a list of accounts for awards that have ended based on
the award end date as indicated in PMS and codes the accounts for when the
Authorized, Disbursed, and Charged amounts are all equal and/or represent final
amounts. This report provides Department bureau personnel with a basis for
confirming the status of awards received by the bureaus ' PMS users as well as the
ability to routinely review zero balance accounts.




                                  UNCLASSIFIED




                                         51

                                UNCLASSIFIED
                                 UNCLASSIFIED



                                    UNCLASSIFIED
                                        -3-

Following is a summary from the COSAR Report.

Balance                                            10-1-2011                1-1-2013

Total, Open Grants with a Balance of"Zero"             861                    617

Total, PMS Monthly Service Charges                 $ 4,665                $ 3,343

It should be noted that the numbers reflected in the COSAR report are not static
numbers, but rather a snapshot in time as new grants are constantly added and
existing grants are constantly closed out. These zero balance accounts are often
times kept open past the award end date to ensure that funds can be adjusted as
final administrative requirements pertaining to the grants are met by grantees. The
most common of these are the submission of final reports, reconciliation of grant,
reported, and payment amounts and other financial details, and review of requests
for extension. The number of open accounts above reflect the results of our
concerted efforts to closeout thousands of grants amounting to more than $54
million dollars and our belief that bureau personnel across the Department continue
to make grants close out a major component of their daily work.

Additionally, we are pleased to report that after receipt of your initial draft report,
our staff was also able to verify with the cognizant Bureaus that 28 out of 29 zero
dollar grants for ECA, PRM, AQM will be reflected in the July PMS COSAR
report as closed. We remain committed to continue to work with bureaus and
where necessary with PMS staff to resolve and close out and deobligate the
remaining grants, and to actively monitor those that would indicate the need for
closeout.

We want to highlight a very important point that was raised in your report because
of the data limitations- the figures in the report need to be analyzed and interpreted
cautiously. In addition, for the Department, a major inhibitor of prompt closeout is
the lack of a final indirect cost rate by non-Department recipient organizations.
More often than not, these other federal agencies have cognizance and are behind
(we have seen up to ten years behind) in the determination/issuance of final rates.
Missing final rates is unfair to recipients and creates potential financial issues for
agencies. Over the years, bureaus have left grants open for years while waiting for
a final indirect cost rate to be obtained by a recipient. This not only resulted in



                                    UNCLASSIFIED




                                           52

                                 UNCLASSIFIED
                                            UNCLASSIFIED



                                                UNCLASSIFIED
                                                       - 4-

high levels of unliquidated obligations, but potentially created situations where a
final claim needed to be covered by the increasingly scarce resources of current
fiscal years if the final rate came in higher than what was originally budgeted.

Our team collaboratively worked with the Bureau of Administration's Office of the
Procurement Executive (A/OPE) and the bureaus to develop GPO 41 1, which
notifies the award recipients of a time certain closeout process and requires the
closeout of grants within an established timeframe after the award period of
performance ends- regardless of whether or not a final rate has been received.
This policy, as it stands, can have the potential to hurt recipients as they remain
out-of-pocket if the final rate eventually comes in higher than the provisional rate
used in the award budget and closeout. We believe that this is a critical
government-wide issue that must be addressed by OMB. We have strongly and
continually urged OMB to include requirements and penalties for cognizant
agencies that fail to issue indirect cost rates in a timely manner. The same
requirements and penalties should apply to recipient organizations that fail to
submit in a timely, accurate manner the needed documentation for cost rate
detennination. We appeal to your office to join us in supporting the need for strict
requirements from OMB to force consistent, timely processing of indirect cost
rates by federal cognizant agencies, as well as the timely and accurate submission
of rate documentation by federal grant recipients.

My staff recently completed their work with the Bureau of Administration's State
Assistance Management System (SAMS) Project Management Team and with the
Office of the Procurement Executive for Federal Assistance (A/OPE/FA) on the
development of close-out functionality within the Grants solutions grant
management system which is completing domestic deployment. This functionality
includes a checklist of required actions Grants Officers (GO) must take prior to
closing awards and de-obligating unused funds in SAMS. The functionality
requires GO acknowledgement that ( 1) required reports have been received and (2)
they are compliant with guidance stated in Grants Policy Directive (GPO) #41.
This functionality is operational and will provide better accountabi lity and, further
streamline the grants close out process.




1
    GPD 41 , "Closeout of Federal Assistance Awards"



                                               UNCLASSIFIED




                                                       53

                                            UNCLASSIFIED
                               UNCLASSIFIED



                                   UNCLASSIFIED
                                       -5-

In terms of management controls, as a direct result of this audit, in March 2012, we
took a fresh look at existing controls in PMS and identified improvements in
management controls over payments made through the PMS, to prevent erroneous
payments, and to assist in the timely closeout of grants. PMS Officials, at the
Department's request, developed and implemented new payment processing
procedures for expired grants following 90-days after the end of an award's period
of performance. This new PMS functionality is currently being tested at PRM and
DRL. It is anticipated that PMS will roll out this vital change in August to its other
serviced agencies and the rest of the Department's bureaus. (Please see attachment
2 for details)

Again, we appreciate the opportunity to provide comments on this report and look
forward to working collaboratively with your staff, A/OPE/FA, our grants
community, and lffiS to continue to build on current Department-wide grant
coordination and oversight activities and to improve the grant close out process in
the Department. If you have any questions or need additional information about
our response, please contact Mazhar Ahson, Director, Federal Assistance Financial
                                                         [Redacted] (b) (2)   [Redacted] (b) (2)
Management CGFS/DCFO/FPRA!FAFM) on 703-875-                  or 202-261-


Attachments: as stated.




                                   UNCLASSIFIED




                                        54

                               UNCLASSIFIED
                                     UNCLASSIFIED


Major Contributors to This Report

Melinda M. Perez, Director
Contracts and Grants Division
Office of Audits

Richard A. Astor, Director
Contracts and Grants Division
Office of Audits

Carolyn B. Jones, Audit Manager
Contracts and Grants Division
Office of Audits

Frank E. Forgione, Senior Auditor
Contracts and Grants Division
Office of Audits

Brian K. Jones, Senior Auditor
Contracts and Grants Division
Office of Audits

Phillip A. Ropella, Senior Auditor
Contracts and Grants Division
Office of Audits

Ernest Arciello
Statistician
Office of Audits




                                          55

                                     UNCLASSIFIED
UNCLASSIFIED




UNCLASSIFIED
       UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




       UNCLASSIFIED
